                                              OFFICE OF THE
                                              CHIEF FINANCIAL OFFICER

Office of Inspector General—Office of Audit




                                              FINDINGS AND RECOMMENDATIONS
                                              IDENTIFIED IN AN AUDIT OF THE REPORT ON
                                              PERFORMANCE AND ACCOUNTABILITY
                                              FOR THE YEAR ENDING SEPTEMBER 30, 2005




                                              This report was prepared by R. Navarro & Associates, Inc., under
                                              contract to the U.S. Department of Labor, Office of Inspector General,
                                              and by acceptance, it becomes a report of the Office of Inspector
                                              General.



                                                                                   Assistat Inspector General
                                                                                   U.S. Department of Labor




                                                                            Date Issued:     December 15, 2005

                                                                            Report Number: 22-06-001-13-001
                                                              Findings and Recommendations Identified in an
                                                       Audit of the Report on Performance and Accountability


Table of Contents
                                                                                                                     PAGE

EXECUTIVE SUMMARY ................................................................................................ 3
INDEPENDENT AUDITORS’ REPORT ON FINDINGS AND RECOMMENDATIONS
IDENTIFIED IN AN AUDIT OF THE REPORT ON PERFORMANCE AND
ACCOUNTABILITY ........................................................................................................ 9
REPORTABLE CONDITIONS ...................................................................................... 11
  Finding 1 - Incomplete Capitalization of Internal-Use Software .......................... 13
  Finding 2 - Software License Fee Inappropriately Capitalized ............................ 15
  Finding 3 - Internal Control Weaknesses Noted for Job Corps Real Property... 17
  Finding 4 - Grant Accounting Errors...................................................................... 21
  Finding 5 - Deficiencies in Controls Established to Prevent Unemployment
     Insurance Benefit Overpayments ..................................................................... 23
  Finding 6 - Errors in FECA Medical Bill Processing ............................................. 25
  Auditors’ Conclusion .............................................................................................. 27
  Finding 7 - Lack of System to Track Certain FECA Medical Bill Receivables .... 28
  Finding 8 - Lack of Current Medical Evidence to Support FECA Medical Benefit
     Payments ............................................................................................................ 29
  Finding 9 - OASAM’s Procurement Files Lack Sufficient Documentation.......... 30
  Finding 10 - Managerial Cost Accounting System Not Fully Implemented ........ 33
  Finding 11 - Errors Reported by States on ETA 2112 Not Corrected by ETA..... 34
  Finding 12 – Weaknesses Noted Over ESA Benefit Program Accounting ......... 38
MANAGEMENT ADVISORY COMMENTS................................................................... 43
  1. Unemployment Compensation Advisory Council Not Established ............... 45
  2. Social Security Wage Authorizations Not Consistently Received From
     FECA Claimants ................................................................................................. 46
  3. Monthly Medical Bill Sampling Not Sufficiently Performed by FECA District
     Offices ............................................................................................................... 47
  4. Inadequate Validation of Unemployment Insurance Data Submitted by
     States ............................................................................................................... 48
  5. Lack of Written Policies and Procedures for the Longshore and Harbor
     Workers' Compensation Act Special Fund ...................................................... 50
  6. Inadequate Accountable Property Systems .................................................... 51
  7. Weaknesses in the DLHWC Rehabilitation Payment Process ....................... 52
  8. Internal Control Weaknesses Noted for Job Corps Real Property ................ 54
  9. Inadequate Capitalized Asset Property Management ..................................... 55
APPENDICES ............................................................................................................... 59
  APPENDIX A Acronyms and Abbreviations ......................................................... 61




Prepared by R. Navarro & Associates, Inc.                                                                                    1
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                                      Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability



Executive Summary
R. Navarro & Associates, Inc., under contract to the United States Department of Labor
(DOL), Office of Inspector General (OIG), audited the DOL’s financial statements as of
and for the years ended September 30, 2004 and 2005. The audits were conducted in
accordance with auditing standards generally accepted in the United States of America:
Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin 01-02, Audit
Requirements for Federal Financial Statements. The objectives of the audits were to
express an opinion on the fair presentation of DOL’s principal financial statements.
Additionally, the objectives include expressing an opinion on DOL’s compliance with
requirements of the Federal Financial Management Improvement Act (FFMIA) of 1996
(Public Law 104-278), based on an examination.

In planning and performing the audits, certain procedures were performed with respect
to DOL’s internal control over financial reporting. The objective of these procedures
was not to provide assurance on DOL’s internal controls; accordingly, an opinion on
such controls was not provided. However, certain matters were noted involving the
internal control and its operations that were considered to be reportable conditions, and
other matters considered to be management advisory comments. This report was
prepared to provide information to management that could help in the development of
responses and corrective actions for the reportable conditions and management
advisory comments identified in the audit.

A separate report will be issued to the Chief Information Officer (CIO) containing
recommendations pertaining to the audit of the Department’s general controls and
security over Information Technology (IT) systems that support the financial statements.

Summary of Reportable Conditions and Recommendations

1. Incomplete Capitalization of Internal-Use Software

We identified more than $109 million of internal-use software costs that were not
appropriately capitalized in accordance with generally accepted accounting principles
(GAAP) and DOL policy. Specifically, DOL agencies did not capitalize software
development costs, such as the direct salary and fringe benefit costs associated with
Federal employees involved with software development, and the related indirect costs
such as overhead, rent, and travel. We recommend that the Chief Financial Officer
(CFO) monitor agency compliance with Federal and departmental accounting
requirements for internal use software. Management concurred and recorded
appropriate adjustments to the year-end financial statements. Management also
agreed to monitor agency compliance and reissue guidance for capitalizing costs of
internally-developed software.

Prepared by R. Navarro & Associates, Inc.                                                    3
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

2. Software License Fees Inappropriately Capitalized

We found that DOL agencies inappropriately capitalized $6,720,061 of software
licenses acquired in fiscal year (FY) 2005, and $2,366,037 acquired in prior years.
According to GAAP, these costs should have been expensed in the year acquired. We
recommend that the CFO issue written guidance and monitor agency compliance
over accounting for software licenses. Management agreed with the
recommendations and expensed approximately $4.9 million of license fees in FY 2005
and plans to research the remaining amounts and make the appropriate adjustments in
FY 2006. Management also agreed to issue relevant guidance and monitor agency
compliance over accounting for software license costs.

3. Internal Control Weaknesses Noted for Job Corps Real Property

Our FY 2003 audit disclosed that the Employment and Training Administration (ETA)
did not establish sufficient controls to ensure that capitalized real property was
accurately recorded in the subsidiary system and general ledger. We recommended
that management record property transactions timely and make other
improvements over accounting for real property. In response to our prior year
finding and recommendations, management concurred, and developed corrective
actions designed to improve the internal controls over Job Corps real property. While
many of these corrective actions were initiated, full implementation of proposed system
changes and the physical inventory process are not yet complete. Management
concurred and indicated that procedures were improved to ensure that newly finished
structures entered into the subsidiary records were in accordance with the newly
reorganized asset designation and identification system. In addition, a complete review
of items in construction in progress (CIP) was performed, and appropriate adjustments
were recorded in the subsidiary system for over 100 items. The documentation of the
remaining completed projects was not available until near year-end, and could not be
properly entered into CATARS before the closing of the books. Management made an
adjustment for the value of the completed projects so as to properly present the effect of
completing these construction projects. Work for all the remaining projects will be
completed by December 31, 2005.

4. Inaccurate Grant Accounting

The OIG’s FY 1999 audit disclosed various accounting errors in amounts
recorded for ETA’s grants and contracts. The OIG recommended that
management establish procedures to identify and correct accounting errors
on a timely basis. In response, ETA management concurred, and implemented
various improvements designed to detect potential accounting errors. However,
our FY 2005 audit continued to note accounting errors in grants selected for
testing, and identified differences in the total costs reported by grantees in ETA’s
grant cost subsidiary and the corresponding amounts recorded in the general


4                                                      Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

ledger. ETA management concurred with our conclusions, and agreed to
implement additional procedures to address these audit findings.

5. Deficiencies in Controls Over Unemployment Insurance (UI) Benefit Overpayments

The OIG’s FY 2001 audit disclosed that UI overpayment data collected by the Benefit
Accuracy Measurement (BAM) unit reflected significantly higher overpayments than
those established and reported as accounts receivable, and that there was little change
in the rate of overpayments (about 8.5 percent) since 1989. The OIG recommended
that management develop a plan to use the BAM data as the impetus for
improving internal controls over the benefit payment process, and include
procedures to identify statistically valid improvements, or lack thereof, in
overpayment rates. In response, management implemented corrective actions,
including a Government Performance and Results Act (GPRA) goal, which they
believed would result in a significant reduction in the detectable, recoverable
overpayment rate. Management believes that the corrective actions taken in response
to this finding have resulted in a significant reduction in the detectable, recoverable
overpayment rate. However, we found that recent UI data does not reflect
improvements in the rate of overpayments or in the rate measured with the GPRA goal.

6. Errors in Federal Employees Compensation Act (FECA) Medical Bill Processing

Our FY 2004 audit disclosed errors in the processing of FECA medical bills, which were
attributed to the fact that management did not have a quality assurance and internal
audit plan in place prior to implementation of a new medical bill payment system. Both
prior to and in response to this finding, management took steps to correct some of the
weaknesses identified in the audit. We recommended that management move
forward with full implementation of the proposed corrective actions, and adjust
the accounting records accordingly. In response, management implemented certain
corrective actions to improve processing of medical bills. However, our FY 2005 audit
identified that medical bills paid during the year were not consistently priced in
accordance with the appropriate fee schedules. Management partially concurred with
our recommendations, and indicated that corrective actions had already been
implemented to resolve these audit findings.

7. Lack of System to Track FECA Medical Bill Receivables

Our FY 2004 audit disclosed that the Employment Standards Administration (ESA) did
not have a system to track and record medical bill overpayments (receivables) and,
accordingly, these receivables were not recorded in the general ledger. We
recommended that ESA develop and implement a system to identify and record
receivables resulting from overpayment of medical bills. In response, management
indicated that the case management system, inclusive of the receivable system, would
be deployed in FY 2005. However, our FY 2005 audit found that the system
implementation was postponed to March 2006.

Prepared by R. Navarro & Associates, Inc.                                                    5
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability


8. Lack of Current Medical Evidence to Support FECA Compensation Payments

Our FY 2003 audit disclosed that ESA did not have adequate controls to ensure that
current medical evidence is maintained in the case files to support the continuing
eligibility of claimants. We recommended that management develop and implement
effective controls to ensure Claims Examiners (CE) obtain and review medical
evidence, as required by FECA program policy. In response, management indicated
that functions would be added to the new benefit payment system to identify the
presence or absence of required medical evidence. However, we found that the
planned functions were not added to the benefit payment system in FY 2005; rather, the
current timeframe postpones implementation until March 2006. Management
developed a corrective action plan that calls for the completion in March 2006 of an
automated system to track the status of medical evidence in the case files.

9. Office of the Assistant Secretary for Administration and Management’s (OASAM)
Procurement Files Lack Sufficient Documentation

Our FY 2004 audit disclosed that OASAM’s procurement files lacked sufficient
documentation and were poorly organized. As a result, management was not able to
demonstrate compliance with certain procurement regulations and with Federal
Appropriations Law. We recommended that management improve record
maintenance, establish consistent practices, and develop a monitoring process
to ensure compliance with applicable procurement requirements. In FY 2005,
OASAM implemented new policies and procedures that it believes ensure compliance
with all Federal regulations and DOL requirements. OPS requested a class sole source
and ratification authority for FY 2005 continuing service procurement actions. The
request was approved and a Justification for Other Than Full and Open Competition
(JOTFOC) was executed retroactive to October 1, 2004. Because the majority of
procurement actions made by OPS in FY 2005 were for continuing services subject to
the JOTFOC and/or ratification, we were unable to conclude as to whether or not OPS
would be able to produce fully documented and compliant contract awards under
routine operating procedures. We also found that OPS did not comply with certain
reporting requirements of the JOTFOC. Management believes that procedural changes
made to the procurement process have resolved the original audit findings, and has
stated that the report required by the JOTFOC will be completed by the end of the first
quarter of FY 2006. However, for the reasons stated above, the impact of the
procedural changes made by OSASM will be evaluated in the FY 2006 audit.

10. Managerial Cost Accounting System Not Fully Implemented

The OIG’s FY 2002 audit disclosed that DOL was not in compliance with the
requirements for managerial cost accounting (MCA) contained in Statement of Federal
Financial Accounting Standards (SFFAS) No. 4. In response, management developed
plans to implement a department-wide managerial cost accounting system. The OIG

6                                                      Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

recommended that the CFO ensure full implementation of the plan within the
established timeframes. In response, management developed a comprehensive plan
to implement a department-wide MCA system that complies with the requirements of
SFFAS No. 4. However, as of FY 2005, current cost information is not yet being widely
used for decision making on a day-to-day basis. Management concurs, and has
indicated that the Department’s focus during FY 2006 will shift to expanding the use of
cost information by managers at all levels for decision making on a day-to-day basis.

11. Errors Reported by States on ETA 2112 Not Corrected by ETA

On a monthly basis, states are required to submit form ETA 2112, UI Financial
Transaction Summary Unemployment Fund, which provides a summary of transactions
for the state unemployment fund. Our audit of UI activity recorded in FY 2005 identified
that the state reporting entities did not consistently report certain UI transactions, and
that ETA did not detect and correct these errors on a timely basis. As a result, the
financial statements of the Department were misstated. We recommend that
additional instructions be provided to the UI reporting entities, and that ETA
implement procedures to review data reported on the ETA 2112. Management
concurred with these findings, and indicated that various edit checks and reconciliation
procedures will be implemented in FY 2006.

12. Weaknesses Noted Over ESA Benefit Program Accounting

ESA’s Office of Management, Administration, and Planning (OMAP) performs the
accounting for ESA’s benefit programs. In FY 2005, we noted several instances when
the accounting for these activities was not performed timely, completely, or accurately.
These problems arose because ESA did not have detailed written procedures that
would enable new staff to perform accounting activities in a timely manner. These
accounting and reconciliation problems became apparent when OMAP experienced
turnover in three key accounting positions. We recommend that management develop
adequate detailed written procedures that address all significant aspects of its
accounting and financial management; and implement other procedures to ensure that
benefit program transactions are complete, recorded accurately and timely, and are
reconciled between the general ledger and subsidiary records. Management generally
concurred and has begun taking steps to address these recommendations.

Management Advisory Comments

Additional recommendations were made to management in an advisory capacity.
These matters were not considered to be significant deficiencies in the internal control
that would require disclosure as a reportable condition, as defined by applicable audit
standards. These findings and recommendations are presented in the Management
Advisory Comments section of this report.




Prepared by R. Navarro & Associates, Inc.                                                    7
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




8                                                      Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability




Mr. Samuel T. Mok
Chief Financial Officer
U. S. Department of Labor
Washington, DC 20210

                      Independent Auditors’ Report on Findings
                  And Recommendations Identified in an Audit of the
                     Report on Performance and Accountability

We have audited the Report on Performance and Accountability of the United States
Department of Labor (DOL) for the year ended September 30, 2005, and have issued
our report thereon dated November 10, 2005. We conducted our audit in accordance
with auditing standards generally accepted in the United States of America: the
standards applicable to financial statement audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal
Financial Statements.

In planning and performing our audit, we considered DOL’s internal control over
financial reporting by obtaining an understanding of the Department’s internal control,
determined whether internal controls had been placed in operation, assessed control
risk, and performed tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements. We limited our
internal control testing to those controls necessary to achieve the objectives described
in OMB Bulletin No. 01-02. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.
The objective of our audit was not to provide assurance on internal control.
Consequently, we do not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions. Under standards issued by the American Institute of Certified
Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our
judgment, could adversely affect the organization’s ability to record, process,
summarize, and report financial data consistent with the assertions of management in
the financial statements. Material weaknesses are reportable conditions in which the

Prepared by R. Navarro & Associates, Inc.                                                    9
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

design or operation of one or more of the internal control components does not reduce
to a relatively low level the risk that misstatements caused by error or fraud in amounts
that would be material in relation to the financial statements being audited may occur
and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.
We noted certain matters, discussed in the following pages, involving the internal
control and its operations that we consider to be reportable conditions, and other
conditions considered as management advisory comments.

With respect to internal control related to performance measures reported in the
Department’s fiscal year (FY) 2005 Performance and Accountability Report, we
obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertions and determined whether they have been placed
in operation, as required by OMB Bulletin No. 01-02. Our procedures were not
designed to provide assurance on internal control over reported performance measures,
and, accordingly, we do not provide an opinion on such controls. This report does not
contain current or prior year findings and recommendations pertaining to our audit of the
Department’s general controls and security over Information Technology (IT) systems
that support the financial statements in accordance with Government Accountability
Office (GAO) audit guidelines. A separate report will be issued to the Chief Information
Officer containing IT-related findings and recommendations for resolution.

The Independent Auditors’ Report, which expresses our opinion on the fair presentation
of DOL’s Fiscal Years 2005 and 2004 principal financial statements, and our reports on
internal control and compliance with laws and regulations, are presented in the
Department’s FY 2005 Performance and Accountability Report.

In order to provide information to management that could help in the development of
responses and corrective actions for the reportable conditions and other conditions
noted (Management Advisory Comments), we are providing the following findings and
recommendations to the Chief Financial Officer (CFO).

This report is intended solely for the information and use of the management of the
Department of Labor, OMB and Congress, and is not intended to be used and should
not be used by anyone other than these specified parties.




November 10, 2005




10                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability




Reportable Conditions




Prepared by R. Navarro & Associates, Inc.                                                   11
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Finding 1 - Incomplete Capitalization of Internal-Use Software

SFFAS No. 10, which became effective for periods that begin after September 30, 2000,
defines internal-use software as 1) software purchased from commercial vendors, 2)
software internally developed, or 3) software developed by a contractor solely to meet
the entity’s internal or operational needs. SFFAS No. 10 requires that all software
development stage activity costs with respect to internal-use software be capitalized,
and all preliminary design and post-implementation activity costs be expensed. SFFAS
No. 10 also requires that Federal agencies capitalize all direct and indirect costs related
to the internal-use software development phase.

Our audit identified DOL has not capitalized all project costs for internal-use software in
accordance with Statement of Federal Financial Accounting Standard (SFFAS) No. 10.
Specifically, DOL agencies did not capitalize software development costs such as: (1)
direct salary and fringe benefit costs of Federal employees involved; and (2) related
indirect costs such as overhead, rent, and travel. As a result, the balances in
Department of Labor Accounting and Related Systems (DOLAR$) asset account 1830
Information Technology Software and the related account 1839 Accumulated
Amortization Automated Data Processing (ADP) Software are understated, and the
current annual expense is overstated.

DOL implemented the SFFAS No. 10 requirements in the Department of Labor Manual
Series (DLMS) 6 - Financial Management Chapter 700, Section 740 - Management of
Capitalized Internal-Use Software. DLMS 6 establishes a requirement that DOL
agencies capitalize internal-use software with a development cost of $300,000 or more
and that has a projected useful life of 2 years or more. Section 741.1 provides the
following examples of categories of direct and indirect costs that DOL agencies should
capitalize during the software development phase for a particular project:

   Commercial off-the-shelf software;
   Contractor/consultant costs;
   Federal employees’ salaries and benefits; and
   Contractor/consultant and/or Federal employee travel costs, and space rental costs.

The DLMS also provides that any of the above category of costs determined to be
immaterial for a particular project will be expensed, not capitalized.

The Chief Financial Officers Act (CFOA) of 1990 specifies that the agency CFO will
provide policy guidance and oversight of agency financial activities associated with
asset management systems such as property management. On November 16, 2000,
the CFO issued a policy memorandum notifying DOL agency administrative officers
about the SSFAS No. 10 requirements, and providing guidance for recording the
accounting transactions into DOLAR$ for internal-use software.



Prepared by R. Navarro & Associates, Inc.                                                  13
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

The Office of Chief Information Officer (OCIO) provided us a list of 12 agencies that had
internal-use software projects either in development or completed for FYs 2004 and
2005. We sent a questionnaire to these agencies requesting information on their
internal-use software projects such as their policies and procedures for determining
costs associated with the internal-use software, the methodologies used for allocating
Federal salaries and other direct and indirect costs related to the development of the
internal-use software. We also inquired whether the agencies were aware of the
SFFAS No. 10 requirements and DOL policies on accounting for internal-use software
costs. Eleven agencies responded to our questionnaire.

From the responses to our questionnaire, we determined there were 22 internal-use
software projects either developed or completed during FYs 2004 and 2005. We
computed that the costs of these projects totaled $109,812,521. The agencies did not
capitalize any of these costs. Three of the agencies responded that they were not
aware of the SFFAS requirements to capitalize all Federal direct and indirect cost. We
concluded that this occurred because of inadequate Office of Chief Financial Officer
(OCFO) monitoring of DOL agencies’ accounting for the cost of the development and
implementation of internal-use software to ensure they are complying with the
capitalization requirements.

OCFO officials told us they recognize the problem and agree that they need to improve
monitoring of DOL agencies’ compliance with the accounting for internal-use software.
The OCFO started corrective action to determine the costs that were not capitalized and
told us they will enter all costs meeting the capitalization requirements into DOLAR$
and Capitalized Asset Tracking and Reporting System (CATARS). The OCFO
completed this by the end of FY 2005. However, OCFO officials told us they believe
indirect costs are not material and, therefore, do not have to be capitalized. They stated
the process for determining indirect costs would be burdensome.

The actions taken by OCFO ensured internal-use software was accurate by the end of
FY 2005. However, the OCFO needs to provide us documentation to support their
decision that the indirect costs for the internal-use software development stage would
not be material. Even if OCFO determines that prior year indirect cost for all internal-
use software development is immaterial, it should still ensure DOL agencies properly
account for all future cost for internal use software in accordance with SFFAS No. 10.

Recommendation

 We recommend OCFO again notify DOL agencies of their requirements to
account for costs related to internal-use software and monitor to ensure they
properly account for these costs in accordance with Federal and departmental
requirements.




14                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Management’s Response

The OCFO agrees with the recommendation and will monitor agency compliance,
reissue the guidance for capitalizing costs of internally-developed software and will
document the determination on indirect costs. We will monitor compliance by either
meeting with the agencies at least quarterly to discuss any new and existing projects
that may require capitalization and the agencies compliance therewith or obtaining
written confirmations of this same information. We will also add this to the quarterly
certifications if we feel that is needed to support compliance. The guidance, monitoring
and documentation will be completed by January 31, 2006.

The OCFO worked with the agencies and determined that $53 million of internally-
developed software costs needed to be capitalized and such costs were capitalized in
FY 2005. We believe that the difference between the $53 million and the $109 million
determined by the auditors primarily represents maintenance costs that were properly
expensed. In addition, in FY 2004 the OCFO did properly capitalize internally-
developed software costs for the following projects: Cost Analysis Manager (CAM), new
financial management system, NFC payroll migration, E-procurement and E-travel.

Auditors’ Conclusion

We concur with management’s planned corrective action and that the difference
between the $53 million and the $109 million represents maintenance costs that were
properly expensed. We consider this recommendation resolved and open. Closure is
dependent upon issuance of relevant guidance, documentation of indirect costs, and
implementation of monitoring procedures as proposed by management. In addition,
closure is dependent upon a positive outcome of testing conducted in the FY 2006
audit.

Finding 2 - Software License Fee Inappropriately Capitalized

Software licensing allows DOL to purchase one copy of a software program and legally
install it on specified computers or, a network. Although SFFAS No. 10 did not address
capitalizing licensing fees within the body of the standard, in the Basis for Conclusion
section, the Federal Accounting Standards Advisory Board stated that it would be
appropriate for Federal agencies to apply lease-accounting concepts to licenses. It’s
appropriate for Federal agencies to follow the lease accounting concepts provided in
SFFAS Numbers 5 and 6, as well as appropriate policies for capitalization thresholds in
determining whether software license fees should be capitalized. (DOL has established
a threshold to capitalize internal-use software that has a cost of $300,000 or more and a
projected useful life of 2 years or more.)

DOL agencies are capitalizing the costs of software license fees that should be
expensed. This occurred because the DLMS does not provide any requirements or
guidance on how DOL agencies are to account for software license fees in DOLAR$.

Prepared by R. Navarro & Associates, Inc.                                                   15
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

We identified $6,720,061 of software licenses in current year capitalized accounts that
should have been expensed, and $2,366,037 of software licenses acquired in prior
years that was capitalized but should have been expensed. As a result, the asset
accounts 1750 – Equipment, 1759 - Accumulated Depreciation Equipment, 1830 –
Information Technology Software, and 1839 - Accumulated Amortization ADP Software
are overstated, and the current year expenses are understated.

SFFAS No. 6, Chapter 2 Definitions paragraph 20 states:

         Capital leases are leases that transfer substantially all the benefits and
         risks of ownership to the lessee. If, at its inception, a lease meets one or
         more of the following criteria, the lease should be classified as a capital
         lease by the lessee. Otherwise, it should be classified as an operating
         lease.

         1. The lease transfers ownership of the property to the lessee by the end
            of the lease term.
         2. The lease contains an option to purchase the leased property at a
            bargain price.
         3. The lease term is equal to or greater than 75 percent of the estimated
            economic life of the leased property.
         4. The present value of rental and other minimum lease payments,
            excluding that portion of the payments representing executory cost,
            equals or exceeds 90 percent of the fair value of the leased property.

Since software license fees purchased by DOL agencies do not meet any of the above
definitions, they should have not been capitalized.

During our testing of FY 2005 entries into DOLAR$ accounts 1750 – Equipment and
1830 – Information Technology Software, we identified the following software licenses
capitalized that should have been expensed:

    GL                          Doc                                Inventory
 Account        Invoice        Number         Description           Number          Cost
 1750          36831291      BPA04010        Microsoft EA         ITC95021        $4,959,392
                                             Agree
 1830          295278101     B09632385       Microsoft            ITC95022           $602,672
 1750          295385801     F049610781      Microsoft MSHA       ITC95023           $468,073
 1830          295278101     B09632385       Microsoft            ITC95022           $489,131
 1830          19810         B9631827        Quarterly Lease      ITC95020           $200,793
                                             Payment
 Total                                                                            $6,720,061




16                                                      Prepared by R. Navarro & Associates, Inc.
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

We also reviewed the CATARS report as of March 31, 2005, and identified $2,366,037
of additional licenses acquired in prior years that agencies capitalized instead of
expensed.

Recommendations

We recommend that the Chief Financial Officer:

1. Issue guidance in the DLMS regarding the appropriate method for accounting
   for software licenses;
2. Monitor all DOL agencies to ensure compliance with the guidance; and
3. Expense current year licenses of $6,720,061 that were capitalized, and
   research the $2,366,037 of prior year licenses that were capitalized, and
   determine if an adjustment is required in DOLAR$.

Management’s Response

The OCFO agrees with the recommendation. Approximately $4.9 million of license fees
was expensed in FY 2005 and, after further research, the remaining amounts noted by
the auditor were expensed in October 2005. The OCFO will implement procedures to
ensure that agencies are not capitalizing software license fees. New guidance on
accounting for software license fees will also be issued. We will review CATARS on a
monthly basis to determine if any costs were improperly capitalized. As noted above we
will also meet with the agencies as needed to discuss their compliance with the issued
guidance. The guidance and monitoring will be completed by March 31, 2006.

Auditors’ Conclusion

We concur with management’s response and consider these recommendations
resolved and open. Closure is dependent upon issuance of relevant guidance and
implementation of review procedures as proposed by management. In addition, closure
is dependent upon a positive outcome of testing conducted in the FY 2006 audit.

Finding 3 - Internal Control Weaknesses Noted for Job Corps Real Property

In the FY 2004 DOL Audit (DOL Report No. 22-05-001-13-001), we reported that ETA
did not sufficiently use CATARS as a complete property management system in
accordance with the CATARS user guide. We also found that ETA did not establish
sufficient controls to ensure that Job Corps’ capitalized real property was accurately
reported in CATARS and the general ledger.

In the FY 2004 report, we made the following recommendations:




Prepared by R. Navarro & Associates, Inc.                                                   17
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

Recommendations

We recommend the Chief Financial Officer and the Assistant Secretary for
Employment and Training ensure that additions and dispositions are recorded
timely in CATARS by developing and implementing quarterly procedures to:

     •   Transfer CIP balances recorded in CATARS to the appropriate depreciable-
         asset account, where the Division of Budget and Facilities Support (DBFS)
         records of contracts/structures indicate that Certificates of Substantial
         Completion have been issued;
     •   Reconcile DBFS records for dispositions to the Architecture and
         Engineering (A&E) contractor records and to entries in CATARS; and
     •   Reconcile DBFS records of additions and deletions to Office of Financial
         and Administrative Services (OFAS) records of additions and deletions
         recorded in CATARS.

ETA now has procedures in writing that address these recommendations in Section
4.5.2 of their National Accounting Policies and Procedures Manual.

Our testing of additions and dispositions showed that ETA has not completely corrected
the problem. ETA officials told us they expected to complete corrective action before
the end of the fiscal year. Subsequently, ETA informed us that corrective action would
not be completed until FY 2006.

Additions

Our review of the Job Corps construction in progress (CIP) account showed it still
contains completed capitalized construction projects. As of August 31, 2005, the
number of contracts in the CIP account totaled 198 with an approximate value of $144
million. We identified 18 CIP contracts that were completed and should have been
transferred from CIP to the buildings or leasehold improvements account. The value of
these completed projects was $55.5 million. We identified three other contracts that
were not for construction projects and should not be in the CIP account. The value of
these contracts was $2.8 million.

During the audit work, ETA informed us that the CIP account still included
completed capitalized construction projects that have not been transferred out of
CIP because they wanted to complete corrective action on the property items
with vague description. Their strategy is to apply the process used to correct the
items with vague descriptions to the process to ensure that completed capitalized
construction projects are adequately identified before transferring them from CIP
to the applicable asset account in CATARS. However, ETA later informed us
that corrective action would not be completed by September 30, 2005. The 18
completed projects we identified would not be transferred out of CIP until FY
2006.

18                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability


Dispositions

Our audit found that Job Corps center (JCC) buildings disposed of or no longer in
service are being reported in CATARS as depreciable assets. For the 12 JCCs audited
during our FY 2005 audit, we selected a statistical sample of 442 depreciable real
property items from the March 31, 2005 CATARS. The auditors found that six items
were disposed of or no longer in use, but still reported in the March 31 and June 30,
2005 CATARS. The total book value for the six items was $405,191.

According to ETA management, the problem with ensuring that disposed of or unused
property is removed from CATARS will be corrected when all the physical inventories
are completed.

The recommendation remains resolved and open. OIG agrees with ETA’s strategy to
correct and update CATARS before moving completed projects out of CIP. However,
the recommendation will not be closed until there is a complete update of additions
(CIP) and dispositions in CATARS and DOLAR$.

Management’s Response

ETA performed a complete review of items in CIP, and moved over 100 old items out of
CIP during the year. In addition, changes were made in the information flows and entry
procedures relating to completed contracts to ensure that newly finished structures were
entered into CATARS assets properly in accordance with the newly reorganized asset
designation and identification system. Approximately half of the construction projects
completed during FY 2005 were properly transferred from CIP to assets using these new
procedures and information flows. The documentation of the remaining completed projects
was not available until near year-end, and could not be properly entered into CATARS
before the closing of the books. Management made an adjustment for the value of the
completed projects so as to properly present the effect of completing these construction
projects. Work for all the remaining projects will be completed by December 31, 2005.
Controls will be implemented to ensure that all transfers and reconciliations are performed
on a timely basis.

Management believes that, based on the implementation of effective procedures as
verified by the auditor, the internal control problem identified in the finding and
recommendation has been addressed, and the recommendation should be closed or
moved to the Management Advisory Comments until the auditor can verify that the
completed projects have been moved to assets.




Prepared by R. Navarro & Associates, Inc.                                                   19
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

Auditors’ Conclusion

The recommendation remains a reportable condition and is considered resolved and
open. We agree with management’s position that each building must have a properly
documented cost and description before it is transferred out of CIP. However, the
recommendation remains open because of the high volume of completed buildings still
in CIP. The recommendation will be closed when the transfers are completed.

We recommend the Chief Financial Officer and the Assistant Secretary for
Employment and Training ensure that procedures are implemented to ensure that
sufficient descriptive details of all capitalized property items are obtained and
corrected in CATARS for existing property, and the details are added to CATARS
for future acquisitions.

In our FY 2004 audit, we found that procedures had not been developed to ensure that
all descriptive details of all capitalized real property items are obtained and corrected in
CATARS for existing property and all future acquisitions. Additionally, we found that
CATARS was not consistent with information in the site surveys.

ETA now has controls that address the recommendation in their National Accounting
Policies and Procedures Manual. The manual assigns responsibility to OFAS for all
accounting of ETA’s capitalized assets. One of OFAS’s responsibilities is obtaining
information from Job Corps’ DBFS to update capital acquisitions, improvements and
dispositions. ETA explained that a staff accountant within OFAS consults with DBFS to
verify the description and cost for each new building. This procedure is required before
any new building is removed from the CIP account and transferred into the buildings or
leasehold improvements account.

During our FY 2005 audit, ETA explained to us that it has researched construction
contracts and worked with Job Corps’ DBFS to identify all buildings and land separately.
They matched information obtained from the contracts with the centers site surveys to
“unbundle” real property that had previously been lumped together under one
description and cost. ETA said it is using the results from the current Job Corps center
physical inventories to verify building descriptions. ETA anticipated having this
completed by the end of the FY05. However, ETA had not completed the process for
correcting the vague descriptions at the time of our interim testing. In addition, the
results from the physical inventories will not be completed until FY 2006. Therefore, this
recommendation remains resolved and open. The closure of the recommendation
depends on the results of OIG’s review and testing of CATARS for corrected property
descriptions.

Management’s Response

In its FY 2005 review of the asset descriptions performed after management had
completed the CATARS review and clean-up, the auditor identified 8 structures which

20                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

had inadequate descriptions. The 8 items represent 0.2% of the 3,500 structures and
their original cost of $17 million is about 1.5% of the $1.2 billion in structure gross cost.
While the physical inventory is not complete, none of the adjustments related to the
inventory so far completed have been material, no major errors in the description
revisions have been noted, and no material adjustments are expected to be received in
the remaining inventories.

Management believes that this finding should be closed.

Auditors’ Conclusion

The recommendation is closed based on the corrective actions taken by management
in FY 2005.

Finding 4 - Grant Accounting Errors

In the FY 1999 audit (OIG Report No. 12-00-003-13-001), the OIG reported that
significant errors were made in amounts recorded for ETA's grants and contracts
activity, due to a lack of sufficient internal control procedures.

In the FY 1999 report, the OIG made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer and the Assistant Secretary for
Employment and Training ensure that procedures are established to ensure that
errors made in recording grant information are identified and corrected on a
timely basis. At a minimum, this should include review procedures for data input
and utilization of exception reports which identify transactions with an unusual
nature (such as negative cost entries).

Over the years, ETA has implemented various actions in an attempt to alleviate grant
accounting errors. ETA issued Regional Office accounting procedures as well as
Employment and Training Order (ETO) No. 1-03, Improving Administration of Grants
within the Employment and Training Administration, which clarified the roles and
responsibilities of ETA staff in grants administration and monitoring. In FY 2005, ETA
pushed forward and completed the interface between the grant-cost subsidiary ledger
and DOLAR$, in order to eliminate errors created in the manual data-transfer process.

Despite the efforts made by ETA, our FY 2005 audit continued to identify errors in
ETA’s grants and contracts. We identified differences (in grant costs) between the
amount recorded in the subsidiary records and the amount recorded in DOLAR$, as
follows:



Prepared by R. Navarro & Associates, Inc.                                                   21
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability


                                                              (Absolute Value)

            State Employment Security Act (SESA) grants           $ 76.0 million
            National Emergency grants                             $ 63.6 million
            Workforce Investment Act (WIA) grants                 $ 9.9 million
            Migrant grants                                        $ 8.0 million
            Native American grants                                $ 3.6 million

ETA initiated a reconciliation process in FY 2005 designed to detect differences
between the subsidiary and general ledger; however, the process did not include
sufficient procedures to follow up and correct differences noted in the reconciliation.
ETA believes, and we concur, that many of these differences are not actual
misstatements but are caused during the closeout process whereby grantees fail to
submit final cost reports through the cost-subsidiary system. According to ETA, the
reconciliation process will be improved to include identification and correction of those
differences that represent amounts misstated in DOLAR$.

Additional errors were identified in our statistical sample of grants and contracts, as
follows:

     •   7 out of 96 grants tested (7.3 percent) had misstated or unsupported obligation
         balances;
     •   6 out of 90 grants tested (6.7 percent) had misstated or unsupported cost
         balances; and
     •   4 out of 92 grants tested (4.3 percent) had misstated or unsupported payment
         balances.

Many of the errors detected in our sample were related to regional office contracts that
were transferred in FY 2005 to the national office. These files were not well organized,
and in some cases the contract documents were actually misfiled. ETA believes that
accounting errors and other exceptions noted for these contracts were primarily due to
the transition of duties from the regional to the national office, and that future periods
will reflect improved results. While the dollar amounts involved were not considered to
be material, misfiled documents increase the risk of error and make it difficult to
research/reconcile contract activity.

Overall, we concur with the corrective actions taken by ETA in FY 2005, but conclude
that additional procedures are needed to ensure that grant transactions are recorded
accurately and timely. This recommendation is changed from unresolved to resolved
and open. Closure depends upon full implementation of the reconciliation process and
a positive outcome for grant testing conducted during the FY 2006 audit.




22                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Management’s Response

Management concurs with the finding, and will implement additional procedures to
address the errors by March 31, 2006.

Auditors’ Conclusion

Our audit conclusion remains unchanged.

Finding 5 - Deficiencies in Controls Established to Prevent Unemployment Insurance
Benefit Overpayments

In the FY 2001 audit (OIG Report No. 22-02-004-13-001), the OIG reported certain
deficiencies in the internal controls over Unemployment Insurance benefit payments.
The UI overpayment data collected by the BAM unit reflected that UI overpayment rates
from 1989 through 2001 remained relatively flat, at around 8.5 percent. The report also
noted that the BAM data reflected significantly higher overpayments than those
detected and reported by the states’ Benefit Payment Control (BPC) system, $2.3 billion
versus $669 million, respectively.

In the FY 2001 report, the OIG made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer and the Assistant Secretary for
Employment and Training ensure that the Office of Workforce Security (OWS)
management develop a written plan to utilize the data produced by the BAM unit
as the impetus for improving internal controls over the benefit payment process.
Specifically, the plan should address:

   •   Procedures to analyze overpayment rates for purposes of identifying
       statistically valid improvement, or lack thereof, in overpayment rates at the
       national and state levels.

In response to this finding, management indicated that a significant portion of the $2.3
billion in overpayments represented instances which were considered to be non-
recoverable or not detectable given current operating procedures. Nevertheless,
management provided the OIG with a detailed corrective action plan that described
planned changes to the methods in which BAM and BPC UI overpayments would be
measured and compared, as well as proposed GPRA measures and goals. In FY 2004,
passage of a new law allowed state UI agencies access to the National Directory of
New Hires (P.L. 108-295). Use of this directory was piloted by three states in FY 2005,
and management provided a report analyzing the results of those pilots. The report
concluded that access to the directory provides a “significant benefit” to states in


Prepared by R. Navarro & Associates, Inc.                                                   23
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

identifying and reducing UI overpayments. Management believes that as more states
gain access to the directory, the national overpayment rates will decrease.

We generally concur with management’s corrective actions taken to date. However, the
effects of those efforts have not yet been reflected in the actual UI-benefit overpayment
rate. The published UI-benefit overpayment rates for calendar years (CY) 2004, 2003,
and 2002 were 9.9 percent, 9.3 percent, and 9.1 percent respectively, each year
reflecting an increase rather than a decrease in the rate of overpayments.
(Management provided additional information which indicated that the BAM rate at June
30, 2005, dropped to 9.3 percent.) This recommendation remains resolved and open
pending evidence that the corrective actions taken by management have resulted in
earlier and improved detection of amounts overpaid, and have effectively lowered the
rate of benefit overpayments.

Management’s Response

Management believes that the corrective actions taken have been effective and have
resulted in a decrease in the error rate. As will be reported in the FY 2005
Performance and Accountability Report, the error rate was reduced from 9.7% in FY
2004 to 9.46 % in FY 2005; the target for FY 2005 was 9.5%. Meeting this published
and OMB approved target was one of the key requirements needed for DOL to achieve
a Green score for eliminating improper payments in the Presidents Management
Agenda, which DOL achieved as of September 30, 2005. For these reasons, we
believe that we have fully satisfied the requirements of this finding and it should be
closed.

Auditors’ Conclusion

The FY 2005 rate reported by management in the FY 2005 PAR was based on data
obtained through June 30, 2005, whereas the data used for our audit evaluation was
based on annual published data for the years ended December 31, 2004, 2003, and
2002. We conclude that six additional months of data is not sufficient evidence to
substantiate a permanent downward trend in the UI overpayment rate. Furthermore, the
overpayment rate reported by management for FY 2005 (9.46 percent) reflects an
increase from the rate reported in 2001 with the original audit finding (8.2 percent). This
recommendation remains resolved and open pending conclusive evidence that the
corrective actions taken by management have resulted in earlier and improved
detection of amounts overpaid, and have effectively lowered the rate of benefit
overpayments.




24                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                    Findings and Recommendations Identified in an
                                             Audit of the Report on Performance and Accountability


Finding 6 - Errors in FECA Medical Bill Processing

In September 2003, ESA’s OWCP contracted with a third party, to perform medical bill
processing for FECA claimants. In our FY 2004 audit report (OIG Report No. 22-05-
001-13-001), we identified various errors in the processing of medical bills, resulting in
overpayments and underpayments to providers.
The types of errors that were identified include:

       •   Keying/scanning error
       •   CCR1 fee schedule used instead of DRG2 formula
       •   Line items denied improperly
       •   Documentation not provided
       •   Duplicate payments
       •   Other fee schedule calculations

Without adequate controls over the processing of medical bill payments, OWCP cannot
ensure that amounts paid were correctly calculated in accordance with the fee
schedules. As a result, medical bill providers were overpaid and underpaid, resulting in
misstated medical benefit expense. The misstatements had a direct effect on the
benefit expense chargebacks to other Federal agencies and also effected, to a lesser
degree, the actuarial liability calculation.

In the FY 2004 report, we made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer ensure that the Assistant
Secretary for Employment Standards fully implements corrective actions that
have been proposed or initiated by OWCP, and that the accounting records are
adjusted to reflect identified misstatements.

Both prior to and in response to our audit findings, management took steps to correct
some of the weaknesses identified, which were primarily a result of miscommunication
with the contractor on how to handle certain types of bills, difficulty in distinguishing
between regular outpatient bills and bills from Ambulatory Surgical Centers, bill keying
and scanning errors, and an incorrectly set duplicate pay edit.

However, in our FY 2005 testing, we performed internal control tests of 216 medical bills
and found that 12 bills (5.6 percent) were not priced correctly in accordance with the

1
  Cost to Charge Ratio tables (used to calculate reimbursement based on the state where services were
provided)
2
  Diagnostic-related group (method of calculating reimbursement based on individual hospital specific
cost index)

Prepared by R. Navarro & Associates, Inc.                                                           25
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

OWCP fees schedules. We identified that management needs to take additional
actions to reduce these errors, including:

       •   Modify the duplicate pay edit to allow travel vouchers the same day to
           different locations;
       •   Ensure that version changes to Grouper/Pricer are controlled and
           documented;
       •   Improve controls over the fee schedule changes, so that the effective date is
           not before the implementation date; and
       •   Strengthen the controls over the manual override function.

Therefore, this recommendation is changed to unresolved, pending receipt and review
of a corrective action plan with timeframes for completion. The corrective action plan
should specifically address duplicate pay edits related to travel vouchers, version
changes to Grouper/Pricer software, controls over fee schedule changes, and controls
over the manual override function.

Management’s Response

We disagree with the auditors in two of their findings: (1) the need to modify the travel
voucher duplicate edit and (2) the need to ensure that version changes to
Grouper/Pricer be further controlled and documented. Although we agree with the
remaining two findings, these issues had been identified and at least partially resolved
prior to the beginning of the audit.

The Central Bill Processing system currently supports the accurate processing of same
day travel vouchers to different locations, therefore system changes are not required.

At present, there are five levels of duplicate edits in the CBP, ranging from exact
duplicate (most severe) to possible conflict (least severe). For travel bills, only the exact
duplicate edit is applicable. The exact duplicate criteria for travel bills is:
               Equal SSN
               Equal Dates of Service
               Equal Procedure Code
               Equal Trip Code
               Equal Departure Location
               Equal Destination Location
               Equal Billed Charge

If any of the above criteria is not the same (including location) the travel bill will not post
a duplicate edit, but allow the bill to continue processing. OWCP sees no need to
modify the duplicate edit function.

Since the Central Bill Processing service began, version changes to Grouper/Pricer
software have been controlled and documented through the Customer Service Request

26                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

(CSR) process. Each CSR is uniquely identified for control and documentation.
Grouper/Pricer software updates are treated as “ACS Maintenance Request” with “High”
priority. In addition, both OWCP and ACS are independently notified by the
Grouper/Pricer software vendor (3M) of updates as a further control. We do not believe
additional controls are necessary in this process.

The yearly fee schedule changes occur during the first quarter of the CY and in the
past, OWCP has assigned effective dates that are the same or after the implementation
dates. However, during the 2005 update, the effective dates were changed
erroneously. OWCP initiated a Customer Service Request (CSR) to rectify the error. A
series of meetings held in the March-April 2005 timeframe clarified the maintenance
process. The process revisions from these meetings will prevent any similar
occurrences.

The procedures for activating the manual override function for bills from specified
claimants and/or providers have been refined. These are contained in FECA PM
Chapter 5-202, “Fee Schedule Appeals, Bill Adjustments and District Director
Exceptions and Case/Provider on Review” and their implementation is scheduled for the
last quarter of CY 2005.

Additional Comments Provided by the OCFO

The CFO supports the completion of the corrective actions described above to fully
address and resolve the recommendation. However, we would like to add that the
sampling of medical payments performed in connection with the annual audit disclosed
a very low projected error rate of only 0% to .4%. As such, we believe that this
recommendation should be moved to the Management Advisory Comments.

Auditors’ Conclusion

Our audit conclusions are based on the results of internal control tests conducted for a
random sample of medical bills paid in FY 2005. Management’s comments regarding
Grouper/Pricer controls and travel voucher duplicate edits describe controls put into
place subsequent to completion of the audit fieldwork. The effectiveness of these
controls will be evaluated and tested in the FY 2006 audit. Nevertheless, based on the
corrective actions taken and proposed, this finding is considered resolved and open.
Closure of the recommendation is dependent upon completion and implementation of all
corrective actions described by management, and a successful outcome for testing
conducted in the FY 2006 audit.

As to the concerns expressed by the OCFO, we concur that the errors identified in the
sample did not result in material misstatements. However, significant errors could occur
in the future if the identified control weaknesses are not corrected.



Prepared by R. Navarro & Associates, Inc.                                                   27
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

Finding 7 - Lack of System to Track Certain FECA Medical Bill Receivables

In our FY 2004 audit report (OIG Report No. 22-05-001-13-001), we noted that ESA had
not implemented a system to track and record medical bill overpayments (receivables).
The Joint Financial Management Improvement Program (JFMIP) Benefit Systems
Requirements identifies Recovery Receivable Management as one of the nine major
functions of a Federal benefit system. Overpayments identified by ESA were set up
using an ad hoc method of tracking and collecting these overpayments. Without an
adequate receivable recovery system, collection of receivables could not be effectively
managed and monitored, which could result in the failure to collect recoverable
amounts. In addition, these receivables were not being captured in the Department’s
general ledger, resulting in an understatement of accounts receivable estimated at
approximately $2 million to $4 million.

In the FY 2004 report, we made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer ensure that the Assistant
Secretary for Employment Standards develops and implements the receivable
system for the identification, tracking, and reporting of medical benefit
overpayments in accordance with JFMIP requirements and ensure that the
accounting records are adjusted to reflect all current receivables.

Management responded to our FY 2004 audit report that the medical bill receivable
function in the new Integrated Federal Employees Compensation System (iFECS) will
be functional by September 30, 2005; however, due to delays in the final development
in iFECS, the timeline has since changed to March 2006. Therefore, this finding is
resolved and open, pending the effective implementation of this receivable function
within iFECS, and a positive outcome of testing conducted during the FY 2006 audit.

Management’s Response

Management will complete the implementation of the receivable function within iFECS
by March 2006 and implement procedures to reconcile on a monthly basis to the
Departments general ledger.

Auditors’ Conclusion

The recommendation remains resolved and open until the receivable function has
been implemented, and the accounting records have been adjusted to reflect all current
receivables.




28                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Finding 8 - Lack of Current Medical Evidence to Support FECA Medical Benefit
Payments

In our FY 2003 audit report (OIG Report No. 22-04-002-13-001), we reported that ESA’s
OWCP did not have effective controls to ensure Claims Examiners (CEs) request and
receive current medical evidence timely. The process relied upon the ad hoc tracking
systems utilized by individual CEs in each of the District offices to ensure compliance.

Because OWCP staff did not follow its procedures, they could not take steps to suspend
or terminate benefits if the medical evidence did not support continuing eligibility.
Without adequate procedures for obtaining and reviewing current medical evidence, the
risk of improper payments increases.

In the FY 2003 report, we made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer ensure that the Assistant
Secretary for Employment Standards develops and implements effective controls
(e.g. automated procedures) that will ensure Claims Examiners obtain and review
current medical evidence as required by FECA program policy.

In our FY 2004 audit testing, we found that Management had not implemented
corrective action and reported this in our FY 2004 audit report (OIG Report No. 22-05-
001-13-001). In response to our reports, Management submitted a corrective action
plan with timeframes for completion. DOL implemented a new automated benefit
system, iFECS, in FY 2005. Management has indicated that iFECS includes a periodic
entitlement review (PER) application that determines the presence or absence of
current medical evidence in the file. This will then update the CE task and reminding
lists through the Workload Organization Window (WOW) application. Supervisors will
be able to sort the lists for overdue tasks. Management initially expected these
functions to be fully operational by September 30, 2005, but due to delays in the final
implementation of iFECS, this has since changed to March 2006.

In our FY 2005 testing, we tested 105 compensation transactions, of which 84 bills
required medical evidence to be obtained within the past year. Of these 84 items, 6 did
not have medical evidence in the case file (7 percent). In addition, to these 105 items,
we tested an additional 100 cases where we determined that medical bills had not been
paid on the case in over 2 years, suggesting that the file may not have current medical
evidence. Of these 100 cases, we noted 37 did not have current medical evidence.
These results are consistent with the errors we have noted in prior years.

Therefore, this finding is resolved and open, pending the effective implementation of
the improved functionality of the WOW application within the iFECS system, and a
positive outcome of testing conducted during the FY 2006 audit.

Prepared by R. Navarro & Associates, Inc.                                                   29
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability


Management’s Response

Management will complete the implementation of the remaining functions within iFECS
by March 2006 and perform a review to ensure that current medical evidence is on file.

Auditors’ Conclusion

This recommendation remains resolved and open pending the effective
implementation of the WOW application, and upon evidence obtained in subsequent
audits which indicates that required medical evidence is consistently obtained and
reviewed in accordance with FECA program policy.

Finding 9 - OASAM’s Procurement Files Lack Sufficient Documentation

In the FY 2004 audit report (Final Report No. 22-05-001-13-001), we reported that four
procurement files selected in our judgmental sample of ten, which had activity during FY
2004, lacked sufficient documentation and were poorly organized. As a result,
management was not able to demonstrate compliance with the sections of the Federal
Acquisition Regulation (FAR) pertaining to contract competition for three contracts.

In the FY 2004 report, we made the following recommendations:

Recommendations

We recommend that the Chief Financial Officer and Assistant Secretary for
Administration and Management:

     •   Ensure completion of policies that are currently being implemented to train
         staff, improve record maintenance, and establish consistent procurement
         practices designed to promote a better understanding and compliance with
         FAR and DLMS polices and procedures.

     •   Ensure development of a monitoring process to ensure compliance with
         FAR and DMLS requirements.

In response to this finding, OASAM implemented a series of policy and procedural
changes designed to improve record maintenance, ensure consistent and compliant
procurement practices, and raise awareness and proficiency in the procurement award
process. Files were reorganized, and our review of a sample of 10 FY 2005
procurement actions identified a significant improvement in that regard.

However, the Office of Procurement Services’ (OPS) assessment of FY 2005
procurement activities identified that contract renewal actions were not processed by
October 1, 2004, in full compliance with the FAR, which lead to a significant decision

30                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

regarding the authorization for FY 2005 contract awards. OPS requested a class sole
source and ratification authority for FY 2005 continuing service procurement actions.
The request was approved by the Procurement Review Board (PRB) and a Justification
for Other Than Full and Open Competition (JOTFOC) was executed. Approval was
granted retroactive to October 1, 2004.

We were informed by OPS that the vast majority of procurement actions made by OPS
were for continuing services subject to the JOTFOC and/or ratification. In fact, 7 of the
10 procurement files randomly selected for our audit contained contract awards issued
under the sole source and/or ratification authorization. For this reason we were unable
to conclude as to whether or not OPS would be able to produce fully documented and
compliant contract awards under routine operating procedures, pursuant to applicable
procurement laws and regulations.

In addition, the authorizing ratification document signed November 23, 2004, from the
Assistant Secretary for Administration and Management stated, “This approval is
contingent on the receipt of the monthly reports detailing individual contract actions
awarded under this authority along with the planned or actual procurement strategies to
assure full FAR compliance next year. The first such report is required by January 10,
2005.” We found that OPS did not comply with this provision, and was unable to
produce complete monthly reports or other records tracking individual contract actions
awarded subject to this authority. (Two reports were submitted by OPS, however,
neither included the required information as to the contracts awarded under the
ratification authority.) OPS stated that due to the workload, and the need to do
extensive corrective actions and retrain staff, planned resources were not available to
comply with this requirement. OPS also indicated they expect to complete the detailed
information within the first quarter of FY 2006.

Based on these facts, these recommendations remain resolved and open pending
evidence that future OASAM procurements not subject to the sole source ratification are
sufficiently documented and demonstrate full FAR compliance. This will be reviewed in
the FY 2006 audit.

Management’s Response

As noted above by the auditor, following the OIG’s FY 2004 audit (No. 22-05-001-13-
001), OASAM implemented a series of policy and procedural changes designed to train
staff, improve record maintenance, and establish consistent procurement practices to
promote a better understanding and compliance with FAR and DLMS polices and
procedures. OASAM has now implemented a full range of actions in OPS to implement
these recommendations, including:

•   Hiring additional qualified staff in the Office of Procurement Services (OPS) with
    requisite training--specifically two division chiefs and three senior specialists;


Prepared by R. Navarro & Associates, Inc.                                                   31
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

•    Contracting for additional procurement specialist support staff, also with updated
     training;
•    Completion of formal procurement training by four OPS staff;
•    Enrolling three OPS staff in Defense Acquisition University training classes;
•    Providing on-the-job training on general procurement practices and the use of
     required DOL and government-wide systems, such as the DOL E-Procurement
     System (EPS) and GSA’s Federal Procurement Data System-Next Generation
     (FPDS-NG), and Federal Business Opportunities;
•    Supplemental training provided for OPS staff , including small business outreach
     training targeted toward meeting DOL’s service-disabled veterans small business
     goal and the Annual DOL Procurement Training Conference;
•    Purging active procurement files and completing tracking sheets as contracting
     modifications are processed;
•    Reorganizing purchase order files for 2004 and 2005, filing them numerically so that
     documents can be easily located;
•    Establishing procedures to filing backup documentation for procurement actions;
•    Implementing procedures requiring original documents to be submitted when
     modification documents or orders are reviewed, to ensure that documents are
     tracked and controlled;
•    Establishing procedures to complete EPS documentation to populate automated
     procurement data systems (e.g., EPS Reports and FPDS-NG);
•    Issuing guidance to DOL EPS users to ensure all required procurement data is
     entered into the system and emphasizing the use of EPS as a management tool;
•    Posting OPS Bulletins on LaborNet (http://labornet.dol.gov/eps/OPS1.htm) for DOL
     customers, which provide guidance on a wide range of acquisition procedures; and,
•    Providing OPS managers with internal OPS Standard Operating Procedures for
     actions that are not controlled by the Federal Acquisition Regulation, Department of
     Labor Acquisition Regulation (DOLAR), Department of Labor Manual Series, or
     other policy.

In addition, to ensure compliance with FAR and DMLS requirements, OASAM/OPS has
updated its operating procedures and developed a checklist for all pre-award actions
that are required to be completed prior to awarding contracts. The checklist, now a part
of each contract file, is reviewed for completeness, appropriate pre-award items are
affirmatively checked, and the checklist is signed by a supervisory contracting officer—
prior to the execution of contract actions.

The OIG’s review of a sample of ten FY 2005 procurement actions validated significant
improvements from these actions in OPS. However, this review also found that OPS
did not comply fully with a reporting requirement related to the special authorities
utilized in some of the procurement actions. A listing of procurement awards currently is
being produced, which will serve as the basis for the report. The report will be
completed by the end of the first quarter of FY 2006.



32                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Based on these substantial corrective measures and the absence of any compliance
issues, we ask that OIG consider moving this finding and the corresponding
recommendations to the report’s “management advisory comments.” We also request
OIG consider closing this matter upon issuance of the OPS report to be completed by
the end of the first quarter of FY 2006.

Auditors’ Conclusion

While we concur with many of the actions taken by management, we remain unable to
conclude whether or not OPS’ revised operating procedures would produce fully
documented compliance with applicable procurement requirements since the majority of
procurement actions made in FY 2005 were subject to a one-time sole source process.
In addition, management had not complied with the reporting requirements of the
JOTFOC as of the end of our fieldwork. Accordingly, these recommendations remain
resolved and open pending a positive outcome for procurement testing conducted in
the FY 2006 audit.

Finding 10 - Managerial Cost Accounting System Not Fully Implemented

In the FY 2002 audit (Report No. 22-03-003-13-001), the OIG reported that DOL was
not in compliance with the requirements for managerial cost accounting contained in
SFFAS No. 4. Specifically, DOL had not defined outputs for its operating programs nor
developed the capability to routinely report the cost of outputs at the operating program
and activity levels. Further, DOL did not adequately link cost information to
performance measures at the operating program level for use in managing program
operations on a routine basis or use managerial cost information for purposes of
performance measurement, planning, budgeting or forecasting.

In the FY 2002 report, the OIG made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer ensure the full implementation of
the comprehensive Department-wide plan by January 28, 2006.

In response to this finding, management developed a comprehensive plan to implement
a Department-wide MCA system that complies with the requirements of SFFAS No. 4.
As of the end of FY 2004, cost models were developed for all major DOL agencies and
their related programs, the MCA system was certified for processing, and the cost
accounting software was installed throughout each of the program agencies.

During FY 2005 DOL focused on expanding and refining cost-model capabilities.
Significant accomplishments included updating each of the models with FY 2004 data,
and in some instances initiation of updates through the second quarter of FY 2005. An
initial set of periodic cost reports to be used for program management and performance

Prepared by R. Navarro & Associates, Inc.                                                   33
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

assessment was developed for each cost model. During FY 2005, program managers
also began to use cost-model information for budget formulation and justification,
resource allocation, and determining “best practices” across similar programs and/or
regions.

However, while the Department has made significant progress in implementing
managerial cost-accounting capabilities, current cost information is not yet being widely
used for decision making on a day-to-day basis. According to management, the
Department’s focus during FY 2006 will shift to expanding the use of cost information by
managers at all levels for decision making on a day-to-day basis. To this end the
Department has identified quarterly milestones to demonstrate continued progress
toward expanding the use of cost information. These milestones include:

     •   Automation of the cost model data collection and update processes;
     •   Quarterly update of data for all cost models;
     •   Continued enhancement and expansion of existing cost models and associated
         reports; and
     •   OCFO, OASAM/CPPR and agencies will work to map cost model outputs to
         performance goals.

Cost-model information will be used to help track efficiency measures. Agencies will
develop metrics and targets focused on cost drivers for some key agencies/programs,
and monitor data throughout the year to determine whether targets have been met.

Based on the progress made in implementing cost accounting systems throughout DOL,
we conclude that DOL is substantially compliant with SFFAS No. 4, and accordingly,
with FFMIA. Nevertheless, this recommendation is resolved and open pending
verification in FY 2006 that the Department is able to demonstrate the widespread use
of current, updated cost information for decision making on a day-to-day basis, as called
for in its implementation plan.

Management’s Response

The OCFO concurs with the auditor.

Auditors’ Conclusion

Our audit conclusion remains unchanged.

Finding 11 - Errors Reported by States on ETA 2112 Not Corrected by ETA

On a monthly basis, states are required to submit form ETA 2112, UI Financial
Transaction Summary Unemployment Fund, which provides a summary of transactions
for the state unemployment fund. Form 2112 provides information on the state’s
Clearing Account, Unemployment Trust Fund account, and Benefit Payment account.

34                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Certain lines of the ETA 2112 report are added together to arrive at the benefit
payments made by the state reporting entity. ETA has issued instructions on reporting
the transactions in UI Reports Handbook No. 401. Information reported on the ETA
2112 is used by the OCFO to record UI activity in DOLAR$.

Our audit of UI activity recorded in FY 2005 identified that the state reporting entities did
not consistently report certain UI transactions, and that ETA did not effectively review
the monthly reports in order to detect and correct these errors on a timely basis. As a
result, the financial statements of the Department were misstated. Specifically, we
found the following:

1.     In July, 2004, one state reported a $149 million withdrawal from its
       unemployment fund as a negative deposit, which effectively overstated the
       amount recorded in DOLAR$ as UI benefit payment expense. As of the end of
       FY 2004, the state had repaid $92 million of the withdrawal, which reduced the
       amount overstated to $57 million. When an additional amount ($43 million) was
       repaid in FY 2005, the current year UI benefit payment expense was
       understated. Additional information reported in the comments section of the ETA
       2112 indicated that the funds withdrawn were invested outside of the Trust Fund.
       Section 3304 of the Social Security Act requires that all money withdrawn from
       the unemployment fund of the state be used solely in the payment of
       unemployment compensation, exclusive of expenses of administration.

2.     Other states incorrectly reported deposits of $122 million on the ETA 2112. The
       deposits were for Trade Readjustment Assistance (TRA) and North American
       Free Trade Agreement (NAFTA) funds, rather than UI activity, and should not
       have been reported as UI deposits. The effect of these deposits understated the
       amount recorded in DOLAR$ as benefit payment expense.

3.     One of the above states reported approximately $29 million of NAFTA, TRA and
       FUBA deposits, and a corresponding withdrawal for approximately the same
       amount. While the amounts reported offset each other, NAFTA and TRA are not
       part of the Trust Fund and should not be commingled with Trust Fund activity.

4.     In September 2004, one state reported a deposit of $230 million. The deposit
       represented a private loan made by the state for purposes of paying the Title XII
       loan balance. The equity of the state was close to zero. The state incorrectly
       reported the loan proceeds as employer tax revenue, which overstated revenue
       for FY 2004. This activity was not employer taxes and should not have been
       recorded as revenue in the Trust Fund; rather, the transaction should have been
       reported as deposits from other sources, with a proper explanation that it was
       proceeds from a private loan. In FY 2005, the state withdrew funds from the
       Trust Fund to repay the loan, and reported the repayments in a manner that
       created a large advance balance in the general ledger. OCFO investigated the
       large advance balance and noticed that the loan proceeds were recorded

Prepared by R. Navarro & Associates, Inc.                                                   35
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

       erroneously as employer taxes in FY 2004. However, the resulting correction
       was not recorded until July 2005. The same state obtained an additional $39
       million of private loan proceeds in October 2004, which was used to fund UI
       benefit payments, but was not reported or deposited into the Trust Fund. Since
       the payments were made outside of the Trust Fund accounts, the activity was off-
       ledger until corrections were made in July 2005.

5.     The aggregate ending cash balance in the states’ benefit payment accounts as
       reported on the ETA 2112 Report showed a $900 million variance with the
       Accounts Payable and Advance balances recorded in DOLAR$. The reports
       reflected an aggregate cash deficit, or a payable, whereas a net advance
       balance was recorded in DOLAR$. Further analysis revealed that these
       differences were pervasive, with one state showing a difference of $233 million.
       Additionally, we noted several states with advance or payable balances that
       either exceeded or represented a significant portion of the recorded annual
       benefit expense. One state with annual benefit payments of $6 million shows a
       payable of $16 million, which represents 272 percent of annual disbursements for
       that state. Another state with annual benefit payments of $134 million shows an
       advance of $70 million, 52 percent of annual disbursements. Research of this
       unusual trend revealed that benefit payment expense recorded in DOLAR$ was
       understated by approximately $222 million. Discrepancies noted suggest that
       management has been unable to effectively monitor excess cash activity of the
       reporting entities. Public Law 101-453 Section 6503 (1) provides that transfers of
       funds to the states under the program be scheduled so as to minimize the time
       elapsing between transfer of funds from the United States Treasury and issuance
       of checks, warrants or payments by other means by a state. As noted above,
       Section 3304 of the Social Security Act further requires that all money withdrawn
       from the unemployment fund of the state be used solely in the payment of
       unemployment compensation, exclusive of expenses of administration.

The improper reporting by numerous states indicates that ETA is not sufficiently
monitoring information reported on the ETA 2112, and needs to provide the states with
additional instructions or training on reporting financial activity to the Trust Fund. In
addition, we found that ETA does not have sufficient procedures to detect and correct
errors reported by the states on a timely basis. Existing procedures for reviewing ETA
2112 reports are informal, inconsistent, and do not include sufficient follow-up in cases
where unusual activity is identified. Based on our review of the ETA 2112 reports, it is
clear that the states are not consistent on what is reported under each line of the report.
In fact, some states are reporting activity that is not part of the Trust Fund. According to
ETA, the withdrawal of $149 million was noticed by the accounting office; however,
there was no follow-up on the unusual activity.




36                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Recommendations

We recommend that the Chief Financial Officer and the Assistant Secretary for
Employment and Training ensure that:

1. All UI reporting entities receive additional instruction and are notified as to the
   specific activity that should be reported on each line of the ETA 2112 report.
   Special instructions should be given on reporting proceeds from private loans
   deposited into the Trust Fund.

Management’s Response

ET Handbook 401 serves as the vehicle by which the Office of Workforce Security
(OWS) transmits reporting instructions to the states regarding all UI required reports.
OWS will conduct a thorough review of existing reporting instructions and will issue
revised instructions for the ETA 2112 incorporating clarifying information and
addressing how proceeds from private loans deposited into the trust fund should be
reported. This work will be completed by December 31, 2005.

Auditors’ Conclusion

This recommendation is considered resolved and open. Closure is dependent upon
OWS’ issuance of revised instructions for completion of the ETA 2112 reports.

2. Procedures are developed and implemented for monthly reviews of ETA 2112
   reports, for purposes of identifying unusual activity and recording potential
   corrections on a timely basis.

Management’s Response

The OWS UI required reports (UIRR) system which permits states to submit reports
electronically contain edit checks which can alert state staff of questionable entries or
prevent state staff from submitting the report, depending on the severity of the edit.
OWS proposes to review all existing edit checks and develop more stringent checks
wherever possible. In addition, OWS will develop a program to compare the current
monthly report to prior months’ reports and identify any unusual activity. This work will
be completed by December 31, 2005.

Auditors’ Conclusion

This recommendation is considered resolved and open. Closure is dependent upon
completion and implementation of the edit check review and analytical review process
proposed by management, and upon evidence that these procedures have resulted in
timely identification and correction of errors made by states in the ETA 2112 reporting
process.

Prepared by R. Navarro & Associates, Inc.                                                   37
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability


3. ETA performs a reconciliation of the differences between the ETA 8401 or the
   ETA 2112 and the amounts recorded in the general ledger as of September 30,
   2005. In addition, we recommend that the reconciliation be performed on a
   monthly basis starting with October 1, 2005. Differences noted must be
   corrected by the states on their ETA 2112 reports or by the OCFO, if the
   mistake is in the OCFO recording of activity.

Management’s Response

OWS will develop a process to reconcile the ETA 2112 benefit payment balance to ETA
8401 balance and the amounts recorded in the general ledger. We propose convening
a meeting of OCFO and OWS staff to develop agreement regarding the methodology
and data elements to reconcile in this process as currently no such understanding
exists. Upon development of a reconciliation process, OWS will review fiscal year 2006
activity by month. This work will be completed by December 31, 2005.

Auditors’ Conclusion

This recommendation is considered resolved and open. Closure is dependent upon
development and implementation of the reconciliation process proposed by
management, and upon evidence that the reconciliations have resulted in the timely
identification and correction of errors made by states in the reporting process.

Finding 12 – Weaknesses Noted Over ESA Benefit Program Accounting

ESA’s control procedures for the timely and accurately recording of transactions for
FECA, Energy Employees Occupational Illness Compensation Program Act
(EEOICPA), Longshore and Harbor Workers’ Compensation Act (LHWCA), and District
of Columbia Compensation Act (DCCA) need to be improved. OMB Circular A-127
requires agency financial systems to provide reliable and timely information. ESA’s
written procedures were not sufficiently detailed or comprehensive for a newly hired
accountant to perform the duties for staff that left the organization. In FY 2005, these
weaknesses jeopardized the timely issuance of the accountability report.

ESA’s OMAP performs the accounting for ESA’s benefit programs. These accounting
procedures include entering transactions in the DOLAR$ general ledger, reconciling
accounts, and working with employing agencies to ensure receivables are paid. Many
of these transactions are entered in DOLAR$ as monthly summary journal entries from
various subsidiary records. ESA’s OWCP processes the benefit transactions that are
the source of most of these entries. During FY 2005, we noted several instances when
the accounting was not performed timely, completely, or accurately.




38                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

For example,

   Important July and August monthly journal entries were not recorded in the general
    ledger until mid-September.
   Important May monthly entries were not recorded in the general ledger until mid-
    July.
   Funds with Treasury and investment accounts in the general ledger were not
    adequately reconciled with third parties. These accounts had large unreconciled
    amounts at year end with Treasury’s Financial Management Service (FMS) and
    Bureau of Public Debt.
   Significant activity in several accounts was not recorded or recorded incorrectly, or
    supporting documentation was not available.

In addition to these problems with recording DOLAR$ transactions, ESA did not
maintain its subsidiary system for tracking the balance of Intra-governmental Accounts
Receivable for the FECA program. ESA’s loss of key personnel resulted in only higher
priority positions being staffed. Although the OCFO has maintained other receivable
records, ESA was not following up with employing agencies or managing the receivable
balances.

Without an adequate subsidiary system, ESA cannot properly manage its receivables or
report on the employing agency balances accurately. ESA has acknowledged the need
to manage and maintain the receivables and has begun discussing how to implement a
system.

Additionally, ESA did not have a formal reconciliation process to reconcile its various
benefit payment subsidiary systems (for FECA, EEOICPA, and Longshore/DCCA) with
amounts reported on the SF-224s and FMS 6653s to the DOLAR$ general ledger.
Although the OCFO does perform reconciliations of the FMS 6653s to the DOLAR$
general ledger, the reconciliation does not include the detailed payment history
databases. Without a complete and formal reconciliation process, management cannot
ensure that the payment histories reflect what was actually paid by Treasury. Because
the payment histories serve as the official payment records of each individual case or
claim, it is important that these are accurate with Treasury’s records to ensure claimants
are paid the proper amount.

OMB Circular A-127, Financial Management Systems, requires agency financial
systems to provide reliable and timely information. The Circular defines information
systems as the organized collection, processing, transmission, and dissemination of
information in accordance with defined procedures, whether automated or manual.

These accounting and reconciliation problems arose because ESA did not have
sufficiently detailed or written procedures to enable new staff to perform the required
activities in an accurate and timely manner. These accounting and reconciliation
problems became apparent with the significant employee turnover in OMAP. In the past

Prepared by R. Navarro & Associates, Inc.                                                   39
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

2 years, OMAP had turnover in three key accounting positions. ESA did not have
sufficient transition/succession plans in place to be able to handle these staffing
changes.

Without timely and accurate entries, current intragovernmental receivable tracking
system, or timely reconciliations, the Department could not prepare accurate or
complete financial information to be used by managers and other parties. This year,
these weaknesses jeopardized the timely and accurate preparation of the Performance
and Accountability Report.

Recommendations

We recommend that the Chief Financial Officer and the Assistant Secretary for
Employment Standards:

1. Ensure that OMAP develops adequate detailed written procedures for all
   significant aspects of its accounting and financial management. These written
   procedures should be detailed and thorough enough so that an experienced
   accountant, with no prior connection to OWCP’s benefit programs, can follow
   the procedures and correctly record the program’s transactions.

Management’s Response

ESA agrees that we need to develop detailed written procedures for both OMAP and
OWCP. These procedures will encompass all standard operating procedures for
financial management in ESA. The procedures will be used for re-training and
establishing accountability for existing staff, as well as an on-the-job manual for new
employees in ESA financial management positions. Expected completion date is
January 31, 2006.

In addition, OMAP will reinstitute its regional financial management accountability
reviews to ensure that ESA offices nationwide are following established financial
management procedures. Expected beginning date is July 1, 2006, and continuing on a
quarterly basis throughout FY-2007 and the out-years.

Auditors’ Conclusion

Based on the corrective action proposed, this finding is resolved and open pending
review of the new written procedures and implementation of the accountability review
process.

2. Ensure that OMAP implements a human resource transition/succession plan
   which includes a description of key positions and detailed written procedures
   for the duties assigned to the position. The plan should include a procedure


40                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

   for notifying the appropriate official when these key procedures are not being
   completed accurately or timely.

Management’s Response

In FY 2005 OMAP experienced several unanticipated departures of key personnel in the
Accounting Division, but has already begun to implement procedures to ensure the
continuity of services in the future. Along with the Standard Operating Procedures,
each position will have a definitive position description, and new standards requiring
enhanced reconciliation and accountability procedures. The Standard Operating
Procedures will have mechanisms in place to ensure that key procedures are followed
accurately, and on a timely basis. Expected completion date is December 31, 2005.

Auditors’ Conclusion

This recommendation is unresolved. While management has proposed having
definitive position descriptions and Standard Operating Procedures, it does not
adequately address the specific mechanisms to be used to ensure the procedures are
followed and appropriate officials are notified timely.

3. Ensure that OMAP and OWCP develop and implement reconciliation
   procedures for the benefit payment histories and the SF-224, FMS 6653 and
   the DOLAR$ general ledger.

Management’s Response

ESA will develop and implement reconciliation procedures beginning with the FECA
benefit payment histories through SF-224 reporting and including review and updating
of reconciliation procedures from the FECA system SF-224 reporting through the
Treasury FMS 6653 and the DOLAR$ General Ledger. OMAP and OWCP will work
together along with the OCFO to ensure consistency across the reconciliation process.
Expected completion date is January 31, 2006.

Auditors’ Conclusion

Based on the proposed corrective action, this finding is resolved and open pending the
development and implementation of reconciliation procedures for FECA, EEOICPA, and
LHWCA/DCCA.

4. Ensure that OMAP maintains a current Intragovernmental Receivable
   subsidiary ledger and establishes written procedures for collecting the
   receivables. The subsidiary ledger should be maintained to track invoices,
   receipts, and adjustments that are readily traceable to source documentation
   and generate timely reports on employing agency receivable balances that are
   complete and accurate.

Prepared by R. Navarro & Associates, Inc.                                                   41
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability


Management’s Response

ESA will maintain and control an Intragovernmental Receivable subsidiary ledger
complete with written procedures to address the FECA chargeback process. These
procedures will address the proper documentation, tracking and periodic reporting on
the status of charge back receivables. ESA will work with the OCFO to ensure
coordination and reconciliation of receipts. Expected completion date is March 31,
2006.

Auditors’ Conclusion

Based on the corrective action proposed, this recommendation is resolved and open
pending the development of a subsidiary ledger and related written accounting
procedures.




42                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability




Management Advisory Comments




Prepared by R. Navarro & Associates, Inc.                                                   43
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




44                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability


1. Unemployment Compensation Advisory Council Not Established

In the FY 1997 audit (OIG Report No. 12-98-002-13-001), the OIG reported that the
Unemployment Compensation Advisory Council (UCAC) required by the Social Security
Act has not been reestablished. Section 908 of the Social Security Act makes no
provision for delaying the establishment of a new advisory council, and the issues for
which the UCAC is responsible are significant to the UI program.

In the FY 1997 report, the OIG made the following recommendation:

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure
that the Unemployment Compensation Advisory Council is reestablished as
required by Section 908 of the Social Security Act.

ETA disagrees with this recommendation and is pursuing an appeal to the Deputy
Secretary to resolve this finding. ETA informed us, in the President’s FY 2006 Budget
Request, DOL proposed amendments in the “Unemployment Compensation Program
Integrity Act of 2005.” These amendments would require the DOL Secretary to
“periodically” establish an advisory council, whereas the existing requirement is that a
council be convened every 4 years. According to ETA, the “Unemployment
Compensation Program Integrity Act” was submitted to OMB for approval on March 14,
2005; OMB cleared the Act on June 1, and the Act was formally submitted to Congress
June 14, 2005. However, the Act has not yet been approved.

Although changes to the current requirements have been proposed, ETA is still required
to convene UCAC every four years. The proposed requirements would still require ETA
to periodically convene the UCAC, which it has not done since at least FY 1997. The
recommendation remains unresolved until such time that ETA complies with the
legislative requirement.

Management’s Response

Because Section 908 of the Social Security Act (SSA) entitles the members of the
UCAC to compensation and expenses, ETA cannot convene the council without
incurring significant costs. ETA was provided roughly $2 million in Program
Administration funds to support the UCAC from FY 1993 through FY 1995. The
Congress has not provided funding to support subsequent councils, and ETA has
received no inquiries or other expressions of interest from the Congress or other
stakeholders about establishing new councils. Program Administration funds are
scarce, and it would be imprudent for ETA to divert resources from other activities to
support a new UCAC. In our view, the lack of funding in ETA appropriations for the


Prepared by R. Navarro & Associates, Inc.                                                   45
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

UCAC expresses a congressional view, subsequent to the SSA provision cited by the
OIG, that no UCAC is required to be established.

Auditors’ Conclusion

Our conclusion regarding the UCAC is based on requirements set forth in existing
legislation. This recommendation remains unresolved until such time that ETA
complies with the legislative requirement. We note that management’s conclusion that
“no UCAC is required to be established” appears inconsistent with its attempts to have
the legislation revised.

2. Social Security Wage Authorizations Not Consistently Received From FECA
Claimants

In the FY 2003 audit report (OIG Report No. 22-04-002-13-001), we reported that
controls were not effective in ensuring that Form SSA-581, Authorization to Obtain
Earnings Data From the Social Security Administration, was sent to the claimant and
proper follow-up performed on unreturned forms. We noted that the Office of Workers’
Compensation Programs does not have automated procedures to ensure the timely
request and receipt of this required claimant information. Therefore, the system relies
upon the ad hoc tracking systems utilized by the individual CEs in each of the District
offices.

In the FY 2003 report, we made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer and the Assistant Secretary for
Employment Standards develop an adequate system to ensure that Claims
Examiners obtain and review SSA-581 forms as required by FECA program
policy.

In FY 2004, we found similar results and reported this finding in our FY 2004 audit
report. In response to our audit reports, management submitted a corrective action plan
with timeframes for completion. DOL implemented a new automated benefit system,
iFECS, in FY 2005. Management has indicated that iFECS includes a periodic
entitlement review application that determines the presence or absence of the SSA-581
form in the file. This will then update the CE task and reminding lists through the WOW
application. Supervisors will be able to sort the lists for overdue tasks. Management
expected this function to be fully operational by September 30, 2005, but due to delays
in the final implementation of iFECS, this has since changed to March 2006.

In our FY 2005 testing, we reviewed 105 cases, of which 73 cases required an SSA-581
to be obtained during the past year. Of these 73 cases, 9 cases did not have a properly


46                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

signed SSA-581 in the case file (12 percent). These results are consistent with the prior
year’s testing.

Therefore, this finding is resolved and open, pending the effective implementation of
the improved functionality of the WOW application within the iFECS system, and a
positive outcome of testing conducted during the FY 2006 audit.

Management’s Response

Management will complete the implementation of the remaining functions within iFECS
by March 2006 and perform a review to ensure that properly signed SSA-581 forms are
on file where required.

Auditors’ Conclusion

This finding remains resolved and open until the implementation of the WOW
application in IFECS.

3. Monthly Medical Bill Sampling Not Sufficiently Performed by FECA District Offices

In the FY 2003 audit report (OIG Report No. 22-04-002-13-001), we reported that in the
Philadelphia, Jacksonville, and San Francisco District offices, monthly medical bill
sampling was not performed as required by OWCP procedures. In September 2003,
OWCP began implementation of a new contractor-provided medical bill processing
system. This centralized bill processing shifted the primary responsibility for monitoring
the medical bill payments from the District offices to the National office.

An independent review of medical bills is an important internal control to ensure the
accuracy, quality, and security of the bill processing operation. If the medical bill
reviews are not performed, it increases the risk that management will fail to identify and
correct errors and deficiencies in the medical bill processing on a timely basis. The risk
that improper payments may be made is also increased.

In the FY 2003 audit report, we made the following recommendation:

Recommendation

The Chief Financial Officer and the Assistant Secretary for Employment
Standards ensure that medical bills are reviewed on a timely basis at all District
offices in accordance with FECA Bulletin No. 98-05 and that existing guidance is
updated to reflect implementation of the Improper Payments Act in FY 2004.

In our FY 2004 audit report, we indicated that this finding was resolved and open based
on our review of management’s corrective action plan. In FY 2005, management


Prepared by R. Navarro & Associates, Inc.                                                   47
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

completed its written plan for the review of medical bills, and began executing some of
the procedures, but had not fully implemented its plan.

This finding is resolved and open, pending the successful implementation of the audit
plan and our review in the FY 2006 audit.

Management’s Response

Division of Federal Employees Compensation (DFEC) district offices have begun
auditing samples of medical bills with the focus on tightening procedures and will be
fully implemented by December 31, 2005. Management will perform a review to ensure
that all medial bills are being sampled in compliance with the plan.

Auditors’ Conclusion

This finding remains resolved and open until the sampling has been effectively
implemented and management has reviewed it for compliance with the plan.

4. Inadequate Validation of Unemployment Insurance Data Submitted by States

The FY 92 OIG audit report (OIG Report No. 03-93-034-03-315) disclosed that the UI
reporting system does not include adequate data validation procedures. The workload
validation program validated data entered by the states in UIS. However, each state
only reviewed a small number of items in the data validation program, and the data
validation occurs only for a one month period in the first quarter of the fiscal year.

In the FY 1992 report, the OIG made the following recommendations directly to the
appropriate Assistant Secretary and requested that the CFO work with the Assistant
Secretary to address these recommendations.

Recommendations

The Unemployment Insurance Service (UIS) should review validation methods for
all other data elements contained on the Unemployment Insurance Required
Reports.

UIS began the Unemployment Insurance Data Validation (UIDV) implementation
process in FY 2003. ETA’s Office of Workforce Security is requiring all states validate
data used to support the UIS GPRA performance measures reported in the PAR. As of
September 2005, management reported that states had validated about half of the data
used to support these performance measures. ETA’s OWS required all states to
complete these validation efforts by May 10, 2006. UI data validation converted from a
PC-based system to a Web-based system in the 3rd quarter of FY 2005. States that do
not complete implementation by the May 10, 2006 deadline, or “fail” a validation, must
address the deficiency in their next State Quality Service Plan. ETA does not know if all

48                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

states will be able to meet the implementation date because some states may find it
necessary to delay implementation due to the effects of Hurricane Katrina, either
because they were directly affected, or because they are picking up the workload for the
states that were affected. This recommendation remains resolved and open. We will
perform audit follow-up work after the UIDV program is fully implemented to evaluate
whether this recommendation can be closed.

Management’s Response

As noted above, states are required to validate the data used to support the UI GPRA
performance measures. We will await the OIG follow-up work so that this finding can be
closed.

Auditors’ Conclusion

This recommendation remains resolved and open. Once validation reports have been
received from all states, we will perform audit follow-up work to determine whether this
recommendation can be closed.

The UIS should increase the period being validated from one month for quantity
and one quarter for quality to an entire year.

The OWS disclosed that once UIDV is fully implemented, a determination will be made
as to whether there are substantial benefits to conduct the validation on a full year’s
data. Management reported that UIS required all states to have completed validations
by May 10, 2006. Once data validation is fully implemented, ETA will conduct a four-
quarter review in several states to test the cost-effectiveness of an extended validation
period. The four-quarter review of selected pilot states will commence at that time, and
will be completed by June 2007. The recommendation remains unresolved until OWS
completes the four quarter review to determine if the UIS can achieve substantial
benefits from validating a full year of UI data.

Management’s Response

As noted above, once UIDV is fully implemented, a determination will be made as to
whether there are substantial benefits to conduct the validation on a full year’s data.
This should be completed by June 2007.

Auditors’ Conclusion

Our recommendation for the development of a corrective action plan to address
increasing the validation period beyond one quarter for quality and one month for
quantity remains unresolved, pending the outcome of ETA’s four-quarter review to test
the cost-effectiveness of an extended validation period.


Prepared by R. Navarro & Associates, Inc.                                                   49
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

5. Lack of Written Policies and Procedures for the Longshore and Harbor Workers'
Compensation Act Special Fund

In a memorandum dated April 13, 2004, the OIG issued a management advisory
comment related to the Division of Longshore and Harbor Workers' Compensation
(DLHWC), which administers the LHWCA special fund. The OIG found that the
oversight, evaluation, monitoring, and control of DLHWC were informal and based
primarily on institutional knowledge by experienced staff. Weaknesses were identified
regarding the lack of readily available, up-to-date procedure manuals at the National
office level.

The weaknesses noted create a high risk for discontinuity of major program operations
should the office experience substantial staff turnover, and increase the possibility of
improper or inconsistent accounting for transactions under various general ledger
accounts.

In the April 2004 memorandum, the OIG made the following recommendation:

Recommendation

We recommend that the Director of the Division of Longshore and Harbor
Workers' Compensation ensures that written operating manuals are prepared at
the National Office level to document key operating areas, including: write off of
transactions and adjustments for receivables, and the Fund Balance with
Treasury reconciliation process relating to the SF 224 and the FMS 6652 report.

Management agreed with the OIG’s recommendation and prepared written operating
procedures which were completed by April 30, 2005. However, we noted that most of
the information was copied directly from the Longshore Procedure Manual which lacks
adequate information to enable an employee to reperform critical accounting functions.
For example, the written operating procedures do not address procedures for the
compilation, reconciliation and input of data into the general ledger. It also does not
adequately address the process of calculating and billing annual assessments.
Additionally, in FY 2005, the division began to experience the retirement of key staff
whose knowledge of the program has played an important roll in maintaining program
continuity. There continues to be a high risk of discontinuity of program operations in
the absence of adequate written policies and procedures. This finding is resolved and
open pending receipt and review of updated written procedures.

Management’s Response

Longshore will prepare the missing written policies and procedures and have them
ready for delivery by December 21, 2005.




50                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Auditors’ Conclusion

This finding remains resolved and open pending receipt and review of the written
policies and procedures.

6. Inadequate Accountable Property Systems

In the FY 2001 Findings and Recommendations to the Chief Financial Officer (OIG
Report No. 22-02-004-13-001), the OIG reported that the Department does not have
adequate accountable property systems in place. Federal law (31 U.S.C. 3512 (c) (B))
requires the Department to maintain effective control over, and accountability for, assets
for which the agency is responsible, and to safeguard these assets against waste, loss,
unauthorized use and misappropriation.

These assets include both assets capitalized for financial statement purposes and other
“accountable property.” The OIG noted that several agencies did not have adequate
written procedures and systems developed for identifying and tracking accountable
property.

In the FY 2001 report, the OIG made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer ensure that the Assistant
Secretaries for Administration and Management and Employment Standards
identify and track accountable property to be incorporated into a property
management system.

As of FY 2005, this recommendation remains open only for ESA. In prior years, ESA
was identified as not having an adequate system in place for tracking accountable
property. In response to our recommendations, ESA has implemented the DOL E-
Property system. ESA entered its accountable property into E-Property so it now can
be tracked. However, ESA did not perform a physical inventory of accountable property
to assure its property records are complete and up-to-date.

The recommendation remains resolved and open pending the completion of physical
inventories for ESA accountable property.

Management’s Response

ESA has very nearly completed initial eProperty input for each of its approximately 250
physical locations. As of October 2005, ESA has entered over 9,350 items into the DOL
eProperty System. Within the next 60 days ESA will have an additional staff person on
board with primary responsibility for property management and shortly after his/her
arrival ESA will begin the process of conducting a physical inventory in accordance with

Prepared by R. Navarro & Associates, Inc.                                                   51
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

the policies and responsibilities outlined in the recently issued DLMS chapter on
property management. ESA continues to discuss procedural matters with OASAM,
such as the need for OASAM to procure barcode scanners and develop and
disseminate training. The physical inventory will be completed by April 30, 2006.

Auditors’ Conclusion

The recommendation remains resolved and open pending the completion of physical
inventories for ESA accountable property.

7. Weaknesses in the DLHWC Rehabilitation Payment Process

The Boston District Office of the DLHWC did not properly review and maintain
documentation that supported its payments. This occurred because the Boston District
Office of the DLHWC had not established adequate written procedures that enforce the
requirements to review, approve, and maintain documentation for each payment. OMB
guidance requires agencies to design controls to ensure transactions are properly
reviewed and documented. The lack of proper authorization and documentation
increases the risk that inappropriate payments are made.

The District Offices are responsible for reviewing and processing claims for
rehabilitation services. The Rehabilitation Specialist reviews and approves
rehabilitation plans detailing the services to be provided, dates of services and the
compensation for type of service. After the rehabilitation plan is approved, the
Rehabilitation Specialist inputs the plan information into the Rehabilitation Bill Pay
System and once entered, the total approved plan amount is available for service
payments. Service providers send their invoices to the appropriate District Offices for
processing.

Ninety-five percent (74 out of 78) of the payments tested at the Boston District Office did
not have adequate review by the Rehabilitation Specialist. The invoices were not
reviewed by the Rehabilitation Specialist to ensure the bills were in compliance with the
approved rehabilitation plan. Additionally, 19 percent of the payments tested did not
have a rehabilitation plan in the claimant file.

OMB Circular A-123, Management Accountability and Control, states that management
controls:

     . . . are the organization, policies, and procedures used by agencies to reasonably
     ensure that (i) programs achieve their intended results;[and,](ii) resources are used
     consistent with agency mission . . . management controls are the internal controls
     used to assure that there is prevention or timely detection of unauthorized
     acquisition, use, or disposition of the entity's assets.



52                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Appropriate review of invoices and retention of documentation used to support
transactions are important controls used to ensure the prevention and detection of
improper use of government resources.

The Boston District Office did not have appropriate written policies and procedures
which incorporated adequate review, authorization, and retention of supporting
documentation of the approval process. In response to our audit results, the Boston
District Office revised its policies and procedures and submitted the revised policies and
procedures to Headquarters for review. Headquarters is in the process of reviewing the
Boston District Office policies and procedures and indicated that after the policies and
procedures have been finalized, the DLHWC will distribute them to all the District
Offices. The lack of written policies ensuring proper review of invoices and retention of
supporting documentation increases the risk that improper payments could be made
from the fund.

Recommendation

We recommend that the Assistant Secretary for Employment Standards direct the
DLHWC issue and implement final policies and procedures for all the District
Offices that address the approval of invoices and retention of supporting
documentation. The written procedures should specifically address the review of
invoices by the Rehabilitation Specialist and the retention of rehabilitation plans
in claimant files.

Management’s Response

Longshore will distribute a memo to each District Director restating the proper
procedures for the authorization process for rehabilitation invoices in the district offices.
The memo will advise each District Director to put written procedures in place by
February 15, 2006 in each of their offices that provide for the proper approval and
documentation of rehabilitation invoices. The memo will note that the procedures will
cover the date stamping of invoices, the delivery of the invoices to the Rehabilitation
Specialists, the review and annotation of each invoice by the Rehab Specialist, and
finally the forwarding the approved invoices with accompanying reports of service to the
Bill Payer for payment. It will also cover the indefinite retention policy for rehab plans,
invoices, and reports of service. We will provide the auditors with a copy of the memo
by November 30, 2005.

Auditors’ Conclusion

This recommendation is resolved and open pending the effective implementation of
the procedures outlined in management’s response, and a positive outcome for testing
conducted in the FY 2006 audit.



Prepared by R. Navarro & Associates, Inc.                                                   53
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

8. Internal Control Weaknesses Noted for Job Corps Real Property

In the FY 2004 DOL Audit (DOL Report No. 22-05-001-13-001), we reported that ETA
did not perform adequate physical inventories of Job Corps’ capitalized real property,
and as a result, the property was not adequately safeguarded.

In the FY 2004 report, we made the following recommendations:

We recommend the Chief Financial Officer and the Assistant Secretary for
Employment and Training ensure that an annual physical inventory of all Job
Corps real property is performed, and the inventory results reconciled to
CATARS and DOLAR$.

In their prior year response, management concurred with the finding and
recommendation. The ETA OFAS agreed to work with Job Corps to develop an efficient
and cost-effective method of accomplishing these inventories at the centers. ETA
management planned to issue revised inventory procedures and to complete the
physical inventories by the end of FY 2005.

Our FY 2005 audit found that ETA finalized its National Accounting Policies and
Procedures Manual. Section 4.5.2 requires annual physical inventories of real property
in the fourth quarter of the fiscal year, and that discrepancies as a result of the inventory
be investigated by the Accountable Property Officer (APO). Additionally, ETA prepared
Real Property Physical Inventory Instructions. The instructions were distributed by e-
mail and were issued separate from any ETA National Office accounting procedures.
According to the instructions, Job Corps will provide to the inventory teams the center
Real Property Inventory list and CIP Inventory list.

ETA informed us that the Real Property Inventory list used to conduct physical
inventories at the Job Corps centers was not generated from CATARS because ETA
had not yet completed the process of revising data into CATARS to correct the problem
with vague descriptions (see recommendation on ensuring that sufficient descriptive
details of all capitalized property items are obtained and corrected in CATARS). ETA
initially said it expected the database to be completely entered into CATARS by the end
of the fiscal year. We were later informed that the inventory work will carry into the
beginning of FY 2006. Based on ETA’s explanation on how the Real Property Inventory
list was created, we concluded that it was adequate for interim purposes until it can be
generated from CATARS.

Job Corps contractors McKissack & McKissack and PB Dewberry will perform the
physical inventories using ETA instructions. ETA scheduled 99 Job Corps center
inventories and management expects the inventory results, including corrections to
CATARS, to be completed after the end of FY 2005. The physical inventory database
will be entered into CATARS when inventory work is completed.


54                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

The recommendation is resolved and open. To close the recommendation, ETA
needs to complete the physical inventories, reconcile inventory results to CATARS, and
make appropriate adjustments to DOLAR$.

Management’s Response

The physical inventory was scheduled to be done by the contractors in conjunction with
their normal quarterly visits to the centers. Operational considerations delayed the
process, pushing it beyond the fiscal year-end for some centers. By year-end 44 center
inventories had been completed, reconciled and changes entered into the CATARS
system. By October 14, 2005, 31 more inventories had been accomplished. The
remaining 24 inventories will be completed over the next 2 months.

Management has instituted a rigorous physical inventory process which has
demonstrated management’s control over the real property assets of the Job Corps
Program. Although the process was not complete at year-end, the internal control issue
has been addressed. None of the adjustments related to the inventory so far completed
have been material, and no material adjustments are expected to be received in the
remaining inventories. Management believes that this recommendation should be
closed or moved to the Management Advisory Comments until the auditor can verify
that the inventory is complete.

Auditors’ Conclusion

We concur that the actions taken by management in FY 2005 have improved the
safeguarding of Job Corps real property, and consider the remaining issues to be
management advisory comments. The recommendation is resolved and open. To
close the recommendation, ETA needs to complete the remaining physical inventories,
reconcile inventory results to CATARS, and make appropriate adjustments to DOLAR$.

9. Inadequate Capitalized Asset Property Management

In the FY 2001 Findings and Recommendations to the Chief Financial Officer (OIG
Report No. 22-02-004-13-001), the OIG reported that procedures were inadequate to
ensure that disposals of capitalized assets were reported in a timely manner.

In the FY 2001 report, the OIG made the following recommendations:

Recommendations

We recommend that the Chief Financial Officer and the Assistant Secretary for
Employment and Training ensure that:




Prepared by R. Navarro & Associates, Inc.                                                   55
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

     •   Procedures specified in the DLMS are followed for documenting the
         disposal of an asset at the time it is placed out of service, transferred,
         donated, etc., not as a means for reconciling the physical inventory; and
     •   Accountable Property Officers and Property Management Officers follow
         procedures specified in the DLMS for determining liability for lost/missing,
         stolen, or damaged property.

The Department is required by law to establish internal accounting and administrative
controls to reasonably ensure that all assets are safeguarded against waste, loss,
unauthorized use, and misappropriation (31 U.S.C. 3512 (c) (B)). When an asset is
disposed of, a DL-1-55C disposal form is required to be completed by the Accountable
Property Officer (APO) and submitted to the Capitalized Asset Management Officer
(CAMO) for entry into CATARS. The disposal form should be completed at the time of
disposal and indicate the date and method of disposal. The disposal method is
indicated using one of several predefined disposal codes (e.g., trade-in,
salvaged/scrapped, etc.).

ETA

During prior audits, ETA stated it would implement a quarterly physical inventory
by the APO’s, or their respective designates, to ensure that accountable personal
property identified for disposition is done so pursuant with these procedures.
Electronic notification was sent to the APO about the requirement to furnish the
DL-1-55C Disposal Forms for changes to their accountable property inventory.
ETA will continue to follow up with the APOs or their designees to obtain the
disposal forms.

During our FY 2005 audit, ETA informed us that quarterly physical inventories were not
performed. Our initial review of CATARS did not find any record of asset disposals.
Without quarterly physical inventories and DL-1-55Cs, we were not able to determine if
ETA recorded capitalized asset disposals timely, and properly researched the reasons
for disposal. Therefore, both the recommendations, as they pertain to ETA, are
unresolved. ETA needs to begin to take corrective action. In FY 2003, ETA stated it
would begin to perform quarterly physical inventories. However, ETA did not perform
these inventories in FY 2004 or FY 2005 and did not prepare DL-155Cs’ for disposals.
This recommendation will remain unresolved until disposals are recorded timely and
processed according to DLMS requirements.

Management’s Response

The capitalized personal property for ETA addressed in this finding consists of 53 items
with a gross cost of $6,835,985 and a book value of $2,281,211. Most of the book value
remaining consists of LAN equipment, telephone equipment, copiers and teleconferencing
equipment.


56                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

Management recognizes its responsibility to ensure that these assets are not
misappropriated and will implement controls to ensure that:
   • Procedures specified in the DLMS are followed for documenting the disposal of an
      asset at the time it is placed out of service, transferred or donated.
   • Accountable Property Officers and Property Management Officers follow procedures
      specified in the DLMS for determining liability for lost/missing, stolen, or damaged
      property.
   • Inventories are performed on a quarterly basis or at other intervals as determined
      appropriate by management, and
   • Disposal forms are prepared and recorded on a timely basis.

Specifically, we will (1) identify procedural difficulties and devise strategies/changes
needed to improve controls, (2) issue a memorandum to responsible Program/Office
directors, Accountable Property Officers (APOs) and Capitalized Asset Management
Officers (CAMOs) on physical control, disposal documentation and procedures, (3)
ensure DL-1-55C forms are completed and submitted timely to CAMOs for entry into
CATARS, and (4) institute adequate physical inventories, including detailed procedures
and post inventory reconciliation to CATARS. This will be completed by January 31,
2006.

Management believes that this recommendation should be moved to the Management
Advisory Comments.

Auditors’ Conclusion

We concur with the actions proposed by management and consider these
recommendations resolved and open. Closure is dependent upon implementation of
the controls proposed by management, and a positive outcome of audit testing
conducted in the FY 2006 audit. Specifically, audit tests will assess whether or not ETA
adheres to relevant DLMS procedures, including the determination of liability for
lost/missing, stolen, or damaged property; periodic physical inventories; and timely
preparation and recording of property disposal forms.

OCFO Working Capital Fund (WCF)

In prior years, the OCFO stated that the Division of Working Capital Fund Financing
(DWCFF) will reconcile on a monthly basis the CATARS to the DOLAR$ for WCF
assets to ensure the proper recording and reporting of capital assets. In addition,
regular contacts will be initiated with APOs and CAMOs to reiterate the regulatory
requirements to account for capital assets. OCFO also stated that it would place an
emphasis on assets removed from service, as well as the subsequent accounting
transactions.

Our review of CATARS disposals as of June 30, 2005, found that OCFO did not report
any capitalized asset disposals. Therefore, we were not able to determine if OCFO is

Prepared by R. Navarro & Associates, Inc.                                                   57
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

recording capitalized asset disposals timely and properly researching the reasons for
disposal. As a result, both recommendations, as they pertain to OCFO, remain
resolved and open. The closure of the recommendations depends on the OCFO to
provide OIG evidence to verify that disposals are being recorded timely and processed
according to DLMS requirements.

Management’s Response

The OCFO agrees with the recommendations. We have determined that WCF
agencies were in fact completing the DOL-1-55C disposal forms on a timely basis but
did not provide a copy of the form to the CAMO for entry into CATARS until the physical
inventory was completed. The OCFO will clarify the procedures for asset disposals by
January 31, 2006 and institute reviews to ensure that these procedures are being
followed.

Auditors’ Conclusion

The recommendation for the OCFO remains resolved and open and will be closed
when the OCFO clarifies procedures for asset disposals and institutes reviews to
ensure that the procedures are followed.




58                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability




Appendices




Prepared by R. Navarro & Associates, Inc.                                                   59
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




60                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
                                                 Findings and Recommendations Identified in an
                                          Audit of the Report on Performance and Accountability

                                                                                APPENDIX A
ACRONYMS AND ABBREVIATIONS

A&E         Architecture and Engineering
ADP         Automatic Data Processing
APO         Accountable Property Officer
BAM         Benefit Accuracy Measurement
BPC         Benefit Payment Control
CAMO        Capitalized Asset Management Officer
CATARS      Capitalized Asset Tracking and Reporting System
CE          Claims Examiner
CFO         Chief Financial Officer
CFOA        Chief Financial Officers Act
CIO         Chief Information Officer
CIP         Construction in Progress
CY          Calendar Year
DBFS        Division of Budget and Facilities Support
DCAA        District of Columbia Compensation Act
DFEC        Division of Federal Employees Compensation
DLHWC       Division of Longshore and Harbor Workers’ Compensation
DLMS        Department of Labor Manual Series
DOL         U. S. Department of Labor
DOLAR$      Department of Labor Accounting and Related Systems
DWCFF       Division of Working Capital Fund Financing
EEOICPA     Energy Employees Occupational Illness Compensation Program Act
ESA         Employment Standards Administration
ETA         Employment and Training Administration
ETO         Employment and Training Order
FAR         Federal Acquisition Regulations
FECA        Federal Employees Compensation Act
FFMIA       Federal Financial Management Improvement Act
FMS         Financial Management Service
FY          Fiscal Year
GAAP        Generally Accepted Accounting Principles
GAO         Government Accountability Office
GPRA        Government Performance and Results Act
iFECS       Integrated Federal Employees Compensation System
IT          Information Technology
LHWCA       Longshore and Harbor Workers’ Compensation Act
JFMIP       Joint Financial Management Improvement Program
JOTFOC      Justification for Other than Full and Open Competition
MCA         Managerial Cost Accounting
NAFTA       North American Free Trade Agreement
OASAM       Office of the Assistant Secretary for Administration and Management
OCFO        Office of the Chief Financial Officer

Prepared by R. Navarro & Associates, Inc.                                                   61
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-001-13-001
Findings and Recommendations Identified in an
Audit of the Report on Performance and Accountability

Acronyms and Abbreviations (continued)

OCIO        Office of the Chief Information Officer
OFAS        Office of Financial and Administrative Services
OIG         Office of Inspector General
OMAP        Office of Management, Administration and Planning
OMB         Office of Management and Budget
OPS         Office of Procurement Services
OWCP        Office of Workers' Compensation Programs
OWS         Office of Workforce Security
PER         Periodic Entitlement Review
PRB         Procurement Review Board
SFFAS       Statement of Federal Financial Accounting Standards
TRA         Trade Readjustment Assistance
UCAC        Unemployment Compensation Advisory Council
UI          Unemployment Insurance
UIDV        Unemployment Insurance Data Validation
UIS         Unemployment Insurance Service
WCF         Working Capital Fund
WOW         Workload Organization Window




62                                                     Prepared by R. Navarro & Associates, Inc.
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-001-13-001
